A Ai
s

No.

L--

V.

V

;

:j

?■ r
I■"

Supreme Court, ds"
FIL'D

W2h
|

OFFICE OF THE DLL'

IN THE
SUPREME COURT OF THE UNITED STATES

ECCLESIASTICAL D.WASHINGTON

— PETITIONER

(Your Name)
BENJAMIN BROOKE
VS.
CYNDI PRUDDEN DEPATY DIRECTOR
TERRY PAGE ET AL
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
NO:20-1386

UNITED STATE COURT OF APPEAL FOR THE EIGHTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ECCLESIASTICAL D.WASHINGTON
(Your Name)
EL DORADO CORRECTION FACILITY
(Address)
P.0. BOX 311

EL DORADO ,KS 67042

(City, State, Zip Code)

(Phone Number)

RECEIVED
DEC - 2 2020

~j
i

i

r

QUESTION(S) PRESENTED
STATEMENT OF ISSUES PRESENTED FOR REVIEW
1. WHETHER THE DISTRICT COURT IN GRANTING SUMMARY JUDGMENT IMPROPERLY
DECIDED FACTUAL ISSIES
WHETHER THE PLAINTIFF FACTUAL ALLATIONS ON AN UNPROVOKED BEATING BY
OFFENDER AT CORRROADS CORRECTION CENTER THAT SEVERLY ASSAULT ON MR.
WASHINGTON THAT PRISON OFFICIAL EXHIBITED DELIBERATE INDIFFERENCE TO
MR.WASHINGTON HEALTH AND SAFTY FAILURE TO PROTECT AND DIDNOT FOUNDING
THE JUDGE COURT ORDERED EIGHT CIRCUIT FINDS VERIFIED COMPLAINT DEFEATES
SUMMARY JUDGMENT MOTION IN FAILURE TO PROTECT CASE THE CONSTITUTIONALL
IS VIOLATED WHERE DEFENDANTS KNOW OF THE DAMGER OR WHERE THE THREAT OF
VIOLANCE IS SO SUBSTANTIAL OR PREVASIVE FAIL TO EMBRACE A POLICY OR TAKE
OTHER REASONABLE STEP WHICH MAY HAVE PREVENTED THE HARM.
THE DUTY TO PROTECT STANDARD REQUIRES PRISON OFFICEIAL TO SEEK OUT HARM
TO INMATE RATHER THAN ALLOWING THEM TO WAIT UNTIL A SUBSTANTIAL RISK OF
SERIOUS HARM DEVELOS. THE STANDARD RECOQNIZES THAT INMATE WILL ONLY BE
REASONABLY SAFE IF PRISON OFFICEIAL TAKE PREVENTIVE STEPS BEFORE RISK
BECOME SUBSTANTIAL. EVEN IF PRISON OFFICEIAL ARE NOT AWARE OF A SPECIFIC
DANGER OTHER THAN THE GENERAL RISK INHERENT IN ALL PRISON THE EIGHT AMENTMENDT DUTY TO PROTECT SHOULD REQUIRE BASIC MEASURE TO PREVENT (ASSAULT)
AND OTHER FORMS OF HARM TO OVER INMATE OR STAFF.
A DUTY TO PROTECT STANDARD WOULD ALSO ADDRESS THE PROBLEM OF ESTABLISHING
THE KNOWLEDGE OF THE PRISON OFFICIAL IS NOT EXCUSED FROM LIABILITY SIMPLY
BECAUSE HE DIDNOT KNOW OF THE RISK TO THE DEFENDANTS MR. WASHINGTON THE
DUTY TO PROTECT STANDARD WOULD CONTINUE BY ASKING WHETHER THE OFFFICIAL
COULD HAVE DISCOVERED AND PREVENTED THE RISK TO MR. WASHINGTON THROUGH
REASONABLE INSPECTION. RATHER THAN SENDING THE SIGNAL THAT IT IS POSSIBILITY
TO AVOID LIABILITY BY DENYING KNOWLEGE OR AVOLDING IT A STANDARD THAT.
REQUIRES OFFICIAL TO SEEK OUT KNOWLEDGE WOULD DEMONSTRATE A COMMITMENT
TOWARDS GREATER SCRUTINY OF THE INFLICTORS OF PUNISHMENT. IT WOULD ALSO
BROADEN THE SCOPE AND POTENCY OF THE EIGHT AMENDMENT DUTY TO PROTECT INTENT
OF PRISON OFFICIALS IMPLEMETING A LIABILITY STANDARD BASED ON NOT REASONABLY
PROTECTED BY DEFENDANTS.
2. ISSUES PRESENTED FOR REVIEW
WHETHER THE EIGHTH CIRCUIT OF APPEAL IMPROPERTLY DECIDED FACTUAL ISSIES
IN VIOLATION OF THE JUDGE COURT ORDERED ON POST JUDGMENT INJUCTIVE RELIEF
WHEN THE STATE OF MISSOURI CROSSROADS CORRECTION CENTER FAILURE TO ABIDE
BY THE TERMS OF THAT COURT ODERED WHICH THE DEFENDANTS FAILURE TO COMPLY.
THE DISTRICT COURT ABUSED ITS DISCRETION AND VIOLATION MR. WASINGTON'
DUE PROCESS BY NOT HOLDING A HEARING AND WHETHER THE TH EIGHTH CIRCUIT
COURT OF APPEAL ABUSED ITS DISCRETION IN ORDER THE DISTRICT COURT TO
HOLDING A HEARING ON THE FAILURE TO COMPLY WITH THE TERMS OF COURT ORDERED
ON POST JUDGMENT INJUCTIVE RELIEF, MR.WASHINGTON SUBSTANTAIL RISK OF HARM
TO HIS PHYSICAL SAFETY AND THE INDIVIDUAL DEFENDANTS KNEW OR SHOULD HAVE
KNOWN OF THIS RISK AND FAILED TO MITIGATE IT.

POINT III
STATEMENT OF ISSUES PRESENTED FOR REVIEW
3.WHETHER THE DISTRICT COURT IN DENIED PLAINTIFF FACTUAL ALLEGATION
RAISE A MATERIAL ISSUE UNDER THE SUPREME COURT OF THE UNITED STATE
IN HOUSTON V. LACK 487 U.S. 266 THE EIGHT CIRCUIT OF APPEAL AND
THE DISTRICT COURT FOR THE WESTERN DISTRICT MISSOURI ST.JOSEPH
IMPROPERLY DECIDED FACTUAL ISSIES MR. WASHINGTON TIMELY FILED A
DOCMENT THAT WITH IN THE TIME SPECIFIED FOR FILING EXCEPT THAT ANY
DOCMENT SHALL BE DEEMED TIMELY FILED IF IT HAD BEEN DEPOSITED IN THE
UNITED STATE POST OFFICE OR PRISON MAIL BOXS WITH FIRST CLASS POSTAGE
PREPAID AND PROPERLY ADDRESSED TO THE CLERK OF THE COURT WITH THE
TIME ALLOWED FOR WITH THE RULE OF THE COURT PURSUANT LAW OF COURT SEE
HOUSTON V. LACK 487 U.S. 266.

POINT VI
STATEMENT OF ISSUES PRESENTED FOR REVIEW
4. WHETHER THE EIGHT CIRCUIT OF APPEALS ON THE MATTER SUMMARY JUDGMENT
IMPRPERLY DECIDED FACTUAL ISSIES THE PLAINTIFF FACTUAL ALLEGATION
RAISE A MATERIAL ISSUE EIGHTH CIRCUIT FINDS VERIFIED COMPLAINT DEFEATE
SUMMARY JUDGMENT MOTION IN FAILURE TO PROTECT CASES. BERRY V. DOSS
900 f3d 1017 (8th cir 2018) ON AUGUST 20 .2018 THE EIGHT CIRCUIT COURT
OF APPEAL REJECTED AN APPEAL FILED BY OFFICIALS AT THE NORHEAST ARKANASA
COMMUINTY CORRECTION CENTER (NEACCC) IN A LAWSUIT ALLEGING THEY HAD
FAILED TO PROTECT A PRISONER FROM BEING PHYSICALLY AND SEXUALLY HARASSED
THREATENED AND ASSAULTED AND INSTEAD PUNISHED HIM FOR REPORTING THE ABUSE.
MR. WASHINGTON CASE ALLEGEDLY VIOLATED BY THE DEFENDANTS WERE CLEARLY
ESTABLISHED AT THE TIME OF THE CHALLSNGED ACTION THE EIGHTH CIRCUIT
OR THE U.S.C. WOULD HAVE TO RESOLVE THE GENIE AND MATERIAL FACTAUAL
DISPUTE THAT DECISION OF THE LOWER COURT MAY BE ERRONEOUS BUT THE NATIONAL
IMPORTANCE OF HAVING THE SUPREME COURT DECIDE THE QUESTION INVOVED.
POINT V
STATEMENT OF ISSUES PRESENTED FOR REVIEW
THIS CASE ABOUT WHETHER THE DISTRICT COURT CORRECTION DISMISSED A
SSQURI STATE INMATE EIGHTH AMENDMENT. CLAIM AND CORRECTLY GRANTED
¥
TH
_HE^DISMISSED OF THAT PETITION THE QUESTION PRESENTED IS CRITICALLY
IMPORTANT AS TO THE EIGHTH OF APPEAL RULE AND IT RULE AFFIRMED THE
DISTRICT COURT FOR THE WESTERN DISTRICT OF MISSOURI ST. JOSEPH ON
THE DEFENDANTS VIOLATION THE JUDGE COURT ORDERED ON THE POST JUDGMENT
INJUCTIVE RELIEF BAN THE SALE POSSESSION AND POSSESSION AND CONSUPTION
OF TOBACCO PRODUCT IN MISSOURI PRISON AND THE DEFENDANTS (FAILING TO
COMPL WITH THE TERM OF THE CONDITION OF COURT ORDERED AND THE DEFENDANTS
BREACHES THAT DUTE BY FAILING TO PROVIDE PROTECTION WHEN SEVERLY OFENDER
ASSAULT MR. WASHINGTON RETALIATION, THREATING, INTIMINDATION, HARRASSMENT

BECAUSE OF THE BAN OF TOBACCO SMOKE. THE EIGHTH CIRCUIT ERRONOUSLY REJECTED
THIS LAW THE COURT ORDERED AND EIGHTH CIRCUIT REJECTED THE PETITIONER
TIMELY FILED A PETITION FOR EIGHTH AMENDMENT CLAIM THAT TIME SPECIFIED
FOR FILING EXCEPT THAT ANY DOCMENT SHAL BE DEEMED TIMELY FILED IF IT HAD
BEEN DEPOSITED IN THE UNITED STATE POST OFFICE OR PRIOSN MAIL BOXS WITH
FIRST CLASS POSTAGE PREPAID AND PROPERTY ADDRESSED TO THE CLERK OF THE
COURT WITH THE TIME ALLOEWD FOR WITH THE RULE OF THE COURT PURSUANT LAW OF
COURT SEE: HOUSTON V. LACK 487 U.S. 266 WHICH THE 8TH CIR. DENIED ON SEPTMBER
24 2020 THE COURT OF APPEAL ISSUED ITS OPINION ON OCTOBER 2,2020 [UNPUBLISHED]
BEFORE LOKEN,SHEPHERD,AND STRAS, CIRCUIT JUDGE.THE 8th CIR DID RESOLVING
THE EISHTCCIRCUIT'FAILED TO FOLLOW ITS OWN LAWS THIS ACTION DEPRIVES A
PROSONER OF A CONSTITUTIONALLY PROTECTED LIBERTY INTEREST IN VIOLATION OF
DUE PROCESS HICKS V. OKLAHOMA 447 u.s. 343 , 346 (1980) AND RUST V. HOPKINS
984 f2d, 1486, 1492 (8th cir 1993) AND JONES V. RUSSEL 299 f. supp 970 E.D.
TENN 1968 AND BRAGLEY V. GLADDEN 403 f2d 858 (9th cir 1968) BAIDWIN V. BLACK
BURN 653f2d 942 (5th cir 1981).
THE EIGHTH-CIRCUIT DID NOT AND SOULD MAKE FINDING OF FACT TO SHOW THE BASES
OF THERE RULEING IF THERE IS A MATERIAL CONFLICT IN THE EVIDENCE OR WHY
DISTRICT WAS CORRECTLY DISMISSED A MISSOURI STATE INMATE EIGHTH AMENDMENT
CLAIM AND THE TIMELY FILED HIS , OPPOSES MOTION FOR SUMMARY JUDGMENT THE
CONCLUSION SUGGESTION IN SUPPORT OPPOSITION TO THE DEFENDANTS MOTION FOR
SUMMARY JUDGMENT PURSUANT TO LOCAL RULE 7.0 OR DETAILED THIS CASE PRESENT
A CONCRETE FEDERAL AND STATE COURT SPLIT ON AN IMPORTANT CONSTITUTION ISSUE
AND THE EIGHTH CIR. DECISION IS ON THE WRONG SIDE OF THAT SPLIT THE FACT
OF THIS THIS CASE PRESENT AND IDEAL OF (1) DEFENDANTS VIOLATION THE JUDGE
COURT ORDER POST JUDGMENT RELIEF FOR ADDRESSSING THIS DEEPLY DIVIDED THE
FEDERAL COURT OF APPEAL AND STATE COURT FAILURE TO COMPLY WITH THE LAW.
fXHER'E^ONGLOWER COURT THE COURT AND BASIC PRINICIPLES OF FAIRNESS AND DUE
PROCESS REJECT SUCH A PROPOSITION AND IN ISSUES FOR REVIEW ISSUES 1-2-3-45. THE QUESTION IS WETHER IN THE LIGHT MOST FAVORVED TO PLAINTIFF AND WITH
EVERY DOUBT RESOLVED IN PLAINTIFF FAVOR THE PETITION STATE A VALID CLAIM
FOR RELIEF "DISMISSAL IS JUSTIFIED ONLY WHEN THE ALLEGATION OF THE
PETITION CLEARLY DEMONSTRATE PLAINTIFF DOES NOT HAVE A CLAIMS.
POINT IV
STATEMENT OF ISSUES PRESENTED FOR REVIEW
WHETHER DISTRICT COURT SHOULD HAVE NOT LET COUNSEL MR. PHILLIP ZEEK IN THE
MID DURING DISCOVERY WITHDRAW WHEN HIS OFFICE TOLD HIM THAT HE WAS INSTRUCTED
TO WITHDARW WITHOUT MR. WASHINGTON APPROVES AND CONSENTS WHETHER COUNSEL
VIOLATION MR. WASHINGTON DUE PROCESS AND DISRIMINATION AGAINST MR. WASHINGTON
DISABILIY IN COMMUNICAL WITH DEAF OR HARD OF HEARING AND NOT HAVE A INTERPRETER
FAILURE TO FOUND THE STATOTORY ANTHORITY TO ENFORE TITLE OF THE ADA U.S.C.
12102 BECAUSE HE DID NOT UNDERSTAND HOW TO COMMUNICIAL WITHOUT A INTERPRETER
FOR THE DEAF DEFENDANTS,WHETHER THE EIGHT CIR. COURT OF APPEAL SHOULD HAVE
NOT DENIED COUNSEL WHETHER THE DISTRICT COURT SHOULD HAVE APPOINT NEW COUNSEL
THAT THE EIGHTH CIR SHOULD HAVE NEW COUNSEL .THAT THE DECISION OF THE COURT
OF APPEAL CONFLICTS WITH THIS COURT"S CASES ALLOWING STATE LAW ON HAVE A
INTERPRETER FOR THE DEAF .

TABLE OF AUTHORITIES CITED
CASES
PAGE NUMBER
ACC
16
accord goka v. bobbitt 862 f2d ,646, 651 (7th cir 1988)
accevedo-garcia v. vera monrig 368, f3d 49, 58 (1st cir 2004)..
14
12
beclkes v. bennett 05cv2000 (jsr) 2008 u.s. dist lexis 1198571.
brewer v. redgle 2018 u.s. dist lexis 131708 u.s.d.c.................. .
.... 5
brown v. n.c. dep't corr 612 f3d 720, 723, 360 fed appx 494(4th cir 2010).16
11,19
berry v. boss 900 f3d 1017 (8th cir 2018),........................................
berry v. city of muskogee 900 f2d 1489-99 (lOthcir 1990)..............
21
16
butler v. durant u.s.d.c. (d.s.c. ) case no 4-14cv-02276 rmg....
5
colon v. coughlin 58 f3d 865, 873(2d cir 1995)..............................
caldwell v. reynolds no. 95cvl586 (rsp/rws) 1997 u.s. dist lexis 5254,
1997 WL 1411671 at 1 (n.d.n.y.) fed 27,1997............................ ...........
12
chao v. transocean off shore INC 276 f3d 725,728 (5th cir 2002).
14
clem v. lomel 566 f3d 1177,1181-82 (9th cir2009).................... .........
16
14
crawford 329 f3d 131 -39 (2d cir 2003)................................ ............... ..
darnell v. pinerior 846 f3d 1737 (2d cir 2017)............ .....................
11
darnell v. pineior supra 849 f3d at 35................................................
11
davis v. delo 115 f3d 1388,1394-95 (8th cir 1997).................. .. . .
20
de'lont v. angleone330 f3d 634 (4th cir72003).............. ..
16
estlle 429 u.s. 104, 105, deliberate indifference is manifeted by person
personnal in interionally denting or delaying access to medical
10
farmer v. bennann 511 u.s. 8333, 114 set 1970 , 128 LED 2d 811...6,11,16,21,
gace v. solern 858 f2d 385, 388(8th cir 198_........ .......................
21
garrett v. straman 254 f3d 946,950 (10th cir 2001)...................
10
gangloff v. poccia 888 f'.supp 1549,1555 (m.d. fia 1995)......
21
harrid v. city of phola 47 f3d 1333, 1338, (3d cir 1995)....
14
harris v. skinner 2003 u.s. dist lexis 18510, 2003WL 22384794
12
helling v. mckinney 509 u.s. 25,34,113 set 2475, 2481, LED 2d,22,32 (1993)
13
henry v. county of nassau 13cv 7427 (sjf)(apL) 2015 u.s. dist lexis
62652, 2015 WL 2337393 at 4 (E.D.N.Y. MAY 13,2015)........................

13

TABLE OF AUTHORITIES
CASES

PAGE NUMBER

howard v. brown 15 civ 9930(er)2018 u.s. dist lexis 126027 WL3611986
at 3-4- (S.D.N.Y. JULY 28,2018(RAMOS D.J.)
11
houston v. lack 487 u.s. 266..........................
17
int'/bhd of elec workers local union no 545 v. hope elec corp 293 f3d
409 ,417-18 (8th cir 2002).......................................................... ......................... 4,14
irwin v. rnascott 370 f3d 926, 931 (TH CIR 2004).................. ................. ..
14
jenkins v. winter 540 f3d 7421, 750 (8th cir 2008).................................... 5
Johnson v. merrill lynch pierce fenner & smith inc 719 f3d 601, 606-07
(7th cir 2013)..................
14
kingsley v. hendricson _ • u.s.
135 set 2466, 2475,192, LED 2d 416
(2015)..................................
11
khurana v. spherion corp 15 civ 6605 (JEV)2017 u.s. dist lexis 61158,2017
WL 1437204 at 3 (S.D.N.Y.) APR 21,2017...........................
12
lojan v. crumbisis 12 civ 320 (vb) 2014 u.s.dist lexis 165637, 2017....12
mercer v,mitchell 908 f2d 763........................ .....................................................
16
morgan v. dzurenda 14 cv 966 (va) 2017 u.s. dist lexis 484 45-2017 WL
1217092 at 6 (D.CONN MAR 31, 2017)................ ................... ............................... 12
20
proctor v. harmon 257 f3d 868 (8th cir 2001)..............................................
new your ex reL khurana v. spherion corp 15 civ 6605 (JFK) 2017 u.s. dist
lexis 61158, 2017 WL 1437204 at 3 (s.d.n.y.) APR 21,. 2017.......... ..
12
oxendine v. kaplan 214 f3d 1273 , 1276 (10th cir 2001)_____ .-......... ..
J.0
quinone v. jimenez-nettleship 842 f2d 556, 558 (1st cir 1977)........
11,12,
rogers v. salius 16 cv 1299 (JCH) 2017 u.s dist lexis 56396, 2017 WL
1370695 at 4-5 (D. CONN APR 13,2017)...................................................... ..
12
ross c. correction officers john and jane does 1-5 , 610 f.app'x75, 7677
(2d cir 2015).................................................. ............................................. .
11
State v. nebras ka u.s.d.c. 9d neb) case no. 4-12-cv-03115 JEB -TDT
J1
tatlor v. city of new your 16 civ 7857 (NRB) 2018 same standard applied
to a failure to protect claim under the fourteenth amendment
12
u.s.v. hendrickson 822 f3d 812 (6th cir 2016.......................... .
14

TABLE OF AUTHORITIES CITED
CASES

PAGE

NUMBER

14
u. s. v. straub 508 f3d 1003, 1010,-11 (11th cir 2007)
11
vilante v. dep!t of corr 786 f2d 516, 522-23 (2d cir 2015)
12,14
walker v. city of birmingham 388 u.s. 307-21 (1967)......
walker v. wright 17cv 425 (JC.H) 2018 u.s.dist lexis 81408, 2018 WL 2225009
12
at 5 (D.CONN.MAY 15,2018).................... ...... .................................
5
WASHINGTONN V. HAUPERT 481 f3d 543, 550, (7th cir 2007)
.. .22
wadas v. dir of revenae 197 s.w. 222, 2006, mo. app. lexis 1154
4
Washington v. denny el al case no 14cv 6118nklp (Washington I)
STATUTES AND RULES
rule 56(C) fed.r.civ................................................ .
18 u. s .c. 401................................................................ ............
w.d. mo.r. 83.2........................................ ...................................
missouri statate 476.753, 476.750, 476.766, 476,750(5)
42 u. s .c. 1983.......................................... ............................. .. • •

5
14
21,
22
4,10

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

32

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3
4

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT
23

CONCLUSION

INDEX TO APPENDICES

APPENDIX A

U.S.DISTRCIT COURT WESTERN DISTRICT OF MISSOURI
(ST. JOSEPH) CIVIL DOCKET FOR CASE NO #5:17-CV-06139NKL

APPENDIX B

ORDER-GRANTING MOTION TO WITHDRAW AS ATTORNEY (DOC. [55!]
ATTORNEY PHILLIP JAMES RICHARD ZEECK

APPENDIX C

APPENDIX E

ATTORNEY WORK PRODUCT PRIVILEGED AND CONFIDENTIAL
LETTER DATE MAY 31.2019 STATE THAT HE BEEN INSTRUCTED TO
WITHDRAW FROM MR. WASHINGTON CASE
THIRD AMENDED COMPLAINT OF PLAINTIFF FOLLOWS HIS FIRST
AMENDED COMPLAINT BROOKE ET AL.
DISTRICT ORDER DENIED APPOINTMENT OF NEW COUNSEL (doc,57)

APPENDIX F

DEFENDANTS MOTION FOR SUMMARY JUDGEMENT

APPENDIX D

APPENDIX G
JU T’SXENT
APPENDIX H

DEFENDANTS SUGGESTION IN SUPPORT OF MOTION FOR SUMMARY
JUDGMENT
ORDER GRANING DEFENDANTS MOTION FOR SUMMARY JUDGMENT
AND DISMISSING CASE
APPENDIX I JUDGMENT IN A CIVIL CASE IT IS ORDERED AND ADJUDGED
DEFENDANTS MOTION FOR SUMMARY JUDGMENT IS GRANTED AND PLAINTIFF CLAIMS
AGAINST DEFENDANTS PASH, MCBEE, PAGE AND BROOKS ARE DISMISSED WITH
PREJUDICE

APPENDIX': J PLAINTIFFF CONCLUSION SUGGESTION IN OPPOSITION TO
DEFENDANTS MOTION FOR SUMMARY JUDGMENT (DOC. 76
APPENDIX K PLAINTIFF MOTION FOR PARTRIAL SUMMARY JUDGMENT
APPENDIX L ORDER ON JANUARY 2, 2020 DEFENDANTS MOVED FOR SUMMARY
JUDGMENT ON THE SOLE REMAINING CLAIM THAT THEY FAILED
TO PROTECT FROM AN ATTACK BY INMATE CHARLES STAGNER
DOC 70. AND A ORDER ON CONTAINING
THE COURT FIND
NO BASIS FOR ALTERING ITS OF SUMMARY JUDGMENT IN FAVOR
OF DEFENDANTS AND PLAINTIFF MOTION FOR PARTIAL
SUMMARY JUDGMENT (DOC 77) IS DENIED AS HAVING BEEN UNTIMELY
>
FILED. SEE DOCS. 65 AND 68.

APPPENDIX M
APPENDIX N

APPENDIX 0

APPENDIX P

APPENDIX Q

PLAINTIFF MOTION FOR CONSIDERATION REOPEN CASE
ORDER ON JANAUARY 31,2020 THE COURT GREANTED DEFENDANT
SUMMARY JUDGMENT ON PLAINTIFF REMAINING CLAIMS AND
DISMISSED THIS CASE
DOC 82
UNITED-STATE COURT OF APPEALS FOR THE EIGHTH CIRCUIT
ORDER DOCUMENTS SUBMITTED OF ORDER FOR DISTRICT FOR
WESTERN DISTRICT OF MISSOURI ST. JOSEPH (5-17-CV-06139NKL) FOR ORIGINAL RECORD WITH 10 DAYS.
GENERAL DOCKET EIGHTH CIRCUIT COURT OF APPEALS
COURT OF APPEAL DOCKET #:20-1386

EIGHTH COURT OF APPEAL ORDER THE JUDGMENT'ENTERED ON
04/01/2020 WAS ENTERED IN ERROR AND IS HEREBY VACATED
THE PETITION FOR WRIT OF MANDAMUS AND THE MOTION FOR
>APPOINMENT OF COUNSEL ARE DENIED

APPENDIX R EIGHTH CIRCUIT COURT OF APPEALS PRO SE NOTICE OF DOCKET
brief fied pro se appellant
ACTIVITY CASE. NO. 20-1386
brief

APPENDIX S BRIEF OF PLAINTIFF APPELLANT PRO SE NO. 20-1386
APPENDIX T EIGHTH CIRCUIT COURT OF APPEALS,APPELLEE BRIEF FILED BY
DEFENDANTS ATTORNEY FOR MR. BRNJAMIN BROOKE,» CHRIS MEBEE,
TERRY PAGE AND RONDA PASH
APPENDIX U

JUDGMENT THIS APPEAL FROM THE UNITED STATED DISTRICT COURT
WAS SUBMITTED ON THE RECORD OF THE DISTRICT AND BRIEF OF
THE-PARTIES AFTER CONSIDERATION IT IS HEREBY ORDERED AND
!. ADJUDGED THAT THE JUDGMENT OF THE DISTRICT COURT IN THIS
CAUSE IS AFFIRMEND IN ACCORDANCE WITH THE OPINION OF THIS
COURT OCTOBER 02,2020
APEENEIXVV UNITED STATE COURT OF APPEALS FOR THE EIGHTH CIRCUIT NO. 20-1386
ECCLESIASTICAL D. WASHINGTON V. BENJAMIN BROOKS,ETAL. APPEAL
FROM UNITED STATE DISTRICT COURT FOR THE WESTERN DISTRICT
OF MISSOURI -ST.JOSEPH SUBMITTED: SEPTEMBER 24, 2020 FILED:
OCTOBER 2.9 2020 [ UNPUBLISHED ] PER CURIAM
APPENDIX

W

MANDATE OPINION AND JUDGMENT OF 10/02/20 PURSUANT TO THE
PROVISION OF FED. R. OF APPELLATE PROCEDURE 41(A) OCT.30,20
BY EIGHTH CIRCUIT COURT OF APPEALS

APPENDIX.X

INAMTE REQUEST TO STAFF MEMBER FORM NINE AND LETTER ATTCHED
LETTER ABOUT MR WASHINGTON GIVE LAGAL MAIL TO PUT IN PRISON
MAIL BOXS ON JAN 15,2020 HIS MOTION FOR SUMMARY OF JUDGMET
and plaintiff conclusion suggestion IN OPPOSITION of DEFNDANTS
MOTION FOR SUMMARY JUDGMENT AND PLAINTIFF DELCARATION THAT
GAVE TO MR. WEHRY VINCENTS.AND MS. TAMMY MARTIN WITH A VARFICTION
OF NOTARY SEAL ON BY HER DEEMED TIMELY FILED HOUSTON V.LACK
487 u.s. 26 6
APPENDIX Y LETTER WARDEN MR. MCBEE AND RHONDA PASH RE: THREAT AND ASSULT
ON MR. WASHINGTON APRIL 6,2017

APPENDIX Z

ANOTHER LETTER TO THE WARDEN APRIL 16, 2017 TO MR. BROOKE
RHONDA PASH, TERY PAGE AND CHRIS MCBEE ABOUT MR. MCGLUEN AND
CHARLES THREATING MR. WASHINGTON AND ASSAULT HIM.

LIST OF PARTIES

XjX5f All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
NICOLAS TAULBEE
MISSOURI ATTORNEY GENERAL OFFICE^.KC
615 EAST 13th STREET
SUITE 401
KANSAS CITY,MO 64106
(816) 889-5000
FAX 816 889-5006 EMAIL: NICOLAS.TAULLBEE@AGO.MO. GOV
LEAD ATTORNEY
BAR STATUS: ACTIVE
RACHEL LOUISE JAG
615 E.13TH STREET
STE 401
KNASA CIT,MO 64106
EMAIL: RACHEL.JAG@AGO.MO.GOV
LAED ATTORNEY
ATTORNEY TO BE NOTICED
BAR STATUS: ACTIVE

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x} For cases from federal courts:

to
The opinion of the United States court of appeals appears at Appendix _W
the petition and is APPEAL FROM U.S. DISTRICT COURT FOR THE WESTERN
DISTRICT OF MISSOURI-ST.JOSEPH SUBMITTED SEPTEMBER 24,2020
[xi reported at FTT.Fn • or.TORF.F 73?Q?Q [UNPURT.TSHF.D~1; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
to
The opinion of the United States district court appears at Appendix _
the petition and is JUDGMENT ENTERED IN ERROR AND VACATED PETITON
FOR WRIT OF MANDAMUS AND MOTION FOR APPOINTMENT OF-.’COUNSEL
; or,
[XTreported at AFF. DENIED NO. 20-1386
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[XT For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is ORDER JANUARY 31,2020 COURT GRANTED
DEFENDANTS B UMMARY JUDGMENT ON PLAINTIFF REMAINING CLAIM AND
XxixJ reported at. PT<;mtci<; thts ■ parenor.. 7 3 _______ ; or,
[ ] has been designated for publication but is not yet reported; or,
rL 1j is
THE COURT
DENIEDDOC.78
PLAINTIFF"S
is unDublished
unpuDiisneo. FEB
TQ 5,2020
£
qr
JUDGMENT
FILED MOTION
02/026/20 DOCUMENT 82 CASE 5;17-cv-06139-NKL
The opinion of the _
to the petition and is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

1.

court

JURISDICTION
£X|XFor cases from federal courts:
The date on which the United States Court of Appeals decided my case
n/a
was
No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
, and a copy of the
n/a
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____n^a__________(date) on________ _n'a_____ (date)
in Application No.__ A_______
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______

n/a

n/a

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A

n/a

n/a

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

RULE 56(C) FED.R. CIV
18 U.S.C. 401
W.D.MO. R. 83.2
MISSOURI STATATE 476.753,476.750, 476.766, 476.705(5)
42 U.S.C. 1983

3

STATEMENT OF THE CASE
THIS IS A CIVIL ACTION UNDER 42 U.S.C. 1983 BROUGHT BY A STATE PRISONER
WHO ALLEGES THAT MR.WASHINGTON FILES THIS ACTION UNDER 42 U.S.C. 1983
IN 2014;MR.WASHINGTON FILED A LAW SUIT STYSUIT AS WASHINGTON V. DENNY
ET AL CASE NO. 14cv-6118-NKL-P (WASHINGTON I) IN WHICH HE SOUGHT THIS
DISTRICT COURT A COURT ORDER REQUIRING THE MISSOURI DEPARTMENT OF
CORRECTION TO PROHIBIT THE SALE POSSESSION AND USE OF TOBACCO PRODUCT
IN ALL MISSOURI PRISON.
DURING (WASHINGTON I) PENDENCY OFFENDERS INCARCERATED WITH MR.WASHINGTON
A CROSSROADS CORRECTION CENTER(CROSSROADS) REPEATEDLY AND SPECLFICALLY
THREATENED TO ASSAULT MR.WASHINGTON FOR SEEKING A TOBACCO BAN IN (MO)
MISSOURI THE THREATS REPRESENTED A PERVASIVE AND EXCESSIVE RISK THAT
MR.WASHINGTON WOULD BE SUBJECTED TO OBJECTIVELY SERIOUS HARM MR.WASHINGTON
MAKE DEFENDANTS (WARDER) AWARE OF THESE THREATS DEFENDANTS WERE SENT
LETTERS AND WERE DELIBERATELTY INDIFFERENT TO MR.WASHINGTON HEALTH AND
SAFETY FAILING TO TAKE ANY REASONABLE MEASURES TO PROTECTS HIM FROM
ASSAULT BY OTHER CROSSROADS OFFENDER AS A RESULT OF DEFENDANTS DELIBERATE
INDIFFERENCE MR.WASHINGTON WAS REPEATEDLY AND SEVERELY ASSAULTED AND
SEVERAL BADLY BEATEN AND BEGGED FOR HELP .MR. WASHINGTON WAS BEATEN
BY FOUR INMATE WHO USED AS WEAPONS BARS OF SOAP THEY HIDDEN INSIDE SEVER
SOCKS MR. WASHINGTON BEGGED FOR HELP BUT THE GUARD REFUSED TO HELP.
THE OTHER PRISONER AGAIN ATTACKED MR. WASHINGTON IN FRONT OF OFFICIERIAL
THE RESULTED IN A FRACTURE OF SEVERALY RIBE AND LUNG DAMAGE WHICH CAUSE
BREATHING PROBLEM TO MR. WASHINGTON AND SERIOUS BAD LUNG INFECTION
VISIBLE LOSS BEING HIT IN THE HEAD WITH A TELEVISION BY HIS CELLMATE
(RICKY MUGLUEN) AND MR. WASHINGTON HEAD WAS INJURY AND NECK INJURY AND
HIS SPINE INJURY AND BRUIESE AND FACE INJURIES SUSTANCE BRUISES ARM LEGS
BACK AND SPINE INJURIE AND MR.WASHINGTON CANNOT WALK WITHOUT A WALKER
TO HELP HIM TO GIT AROUND MR. WASHINGTON SUSTANCE TWO BLACK EYES AND
SWELLING FACE AND DEEP 1.25 INCH CUT ON INSIDE HIS MOUTH REQUIRED STIRCHES
FOR DAYS AFTER WARDE MAKING IT DIFFICUIT OR IMPOSLBLE TO EAT AND SLEEP
MIGRAINE HEADACHED AND DIZZINESS FOR BEING HIT IN THE HEAD WITH A TV AND
BARS OF SOAP REUSLT OF SEVER TEETH ARE LOOSE NO MEDICAL TREATMENT A
LARGE CUT NEAR LEFT EAR AND CUT TO THE HEAD AND BRUISES SHELLING NO
MEDICAL TREATMENT COULD NOT SLEEP BECAUSE OF SERIOUS SEVER OF PAIN IN MR.
WASHINGTON FACE AND HEAD AND NECK INJURIES TO BACK AND MOUTH SWOLLEN
EXPERIENCE EXTREME PAIN FROM THE INFECTED TOOTH ABOUT ABOUT SIX MONTH
NO MEDICAL CARE AND ADDITION FRACTURE BONES IN THE KNEE AND LEGS AND
RIGHT SHOULDER AND HAVE TO WARE BACK BRACE FOR HIS SPINCE AND SPECIAL
BRACE FOR KNEE AND SPECIAL SHOLTO TRY WALK IN AND ,MR. WASHINGTON WAS
SPINCE WAS INJURIES IN THE ASSAULT BY MR, STAGNER CHARLES AND MR.RICKY
AND (4) FOUR) OTHER INMATE WHO USED AS WEAPONS BARS OF SOAP THEY HAD
HIDDEN INSIDE SEVER SOCKS BECAUSE THOSE OFFENDER WAS UNHAPPY BECAUSE
OF THE BAN OF THE SMOKING IN THE STATE OF MISSOURI ALL 38 PRISON.

4

REASONS FOR GRANTING THE PETITION
ARGUMENT POINT I
THE DISTRICT COURT SHOULD NOT HAVE GRANTED SUMMARY JUDGMENT BASED ON ITS
RESOLUTION OF DISPUTED FACTS
SUMMARY JUDGMENT IS TO BE GRANTED ONLY IF THE RECORD BEFORE THE COURT
"THAT THERE IS NO GENUINE ISSUE AS TO ANY MATERIAL FACTS AND THAT THE
MOVING PARTY IS ENTITLED TO A JUDGMENT AS A MATTER OF LAW." RULE 56(C)
FED. R.CIV. THE DISTRICT COURT STATEMENT THAT PLAINTIFF SWORN DECLARATION
CONSIST OF UNSUPPORTED ALLEGATION AND THAT THE WARDEN AND THE DEFENDANTS
INVESTIGATION WAS THOUGHT AMOUNT TO A JUDGMENT ABOUT THE CREDIBITY OF THE^
PLAINTIFF FACTUAL ALLEGATIONS THE DISTRICT COURT MAY NOT MAKE CREDILITY
DETERMINATIONS OR OTHER WISE RESOLVE(DISPUTED FACTUAL ISSUES ON A MOTION
FOR SUMMARY JUDGMENT SEE: JENKINS V. WINTER 540 f3d 742, 750(8th cir 2008)
WASHINGTON V. HAUPERT 481 f3d 543, 550;(7thcir 2007).
MR.WASHINGTON PRO SE BY THROUGH UNDERSIGNED COUNSEL PURSUANT TO FEDERAL
RULE OF CIVE PROCEDURE 56 PLAINTIFF OPPSES THE MOTION FOR OPPOSITION TO
DEFENDANTS MOTION FOR SUMMARY JUDGMENT PRUSUANT THE LOCAL RULES 7.0 THE
PLAINTIFF HAD ASK THIS DISTRICT COURT TO GRANT PLAINTIFF CONCLUSION
SUGGESTION IN OPPOSITION TO DEFENDANTS MOTION FOR SUMMARY JUDGMENT IN
FAVOR BECAUSE THE DEFENDANTS VIOLATION OF THE THE DISTRICT COURT HONORABLE
JUDGE MRS. NANETTE K. LAUGHREY COURT ORDERED THAT THE COURT GRANTED POST
JUDGMENT INJUCTIVE RELIEF THAT BANS THE SALE POSSSESION AND CONSUMPTION
OF TOBACCO PRODUCT IN MISSOURI PRISONER IN WHICH THE JUDGErTN HERE COURT
TTRDERED IN THAT CASE NO~T7r^6118-CV-KNL-P WASHINGTON V. DENNY IN THAT
COURT ORDERED THAT THE STATE OF MISSOURI SHOULD NOT VIOLATION THIS COURT
ORDERDED THAT MISSOURI PRISONER OR STAFFMENBER SOULD NOT RETALIATION OR
ATTACK OR HARASSMENT OR INTIMINDATION OR THREATING MR.WASHINGTON AN ANY
WAY OF THE BANS OF THE SALE POSSESION AND CONSUMPTION OF TOBACCO PRODUCT
IN ALL MISSOURI PRISONE AND CORRRODAO CORRECTION CENTER.
DEFENDANTS FAILURE TO TAKE ANY REASONABLE MEASURE TO PROTECT MR.WASHINGTON
FOR HARM WHEN MR.WASHINGTON HAD GIVEING OR CONSTRUCTIVE NOTICE OF
UNCONSTITUTIONAL WHICH THE DEFENDANTS HAS ACTUAL OR CONSTRUCTIVE OF THE
UNCONSTITUTIONAL PRACTICES CARRIED OUT BY THE DEFENDANTS WHICH NOTICE
TRIGGERED HIS OR HER DUTY TO PROTECT MR.WASHINGTON YET DELIBERATLY FAILED
TOTAKE SUCHACTION AND THAT THE FAILURE TO ACT WAS THE PROXMATE CAUSE OF
PLAINTIFF SERIOUS INIJUY.DELIBERATE INDIFFERENCE TO THE RIGHT OF OTHER
BY FADING TO ACT ON THE INFORMATION THAT MR. WASHINGTON SENT TO THEM
INDICATING THAT UNCONSTITUTIONAL ACT WERE OCCURRING SEE: COLON V. COUGHLIN
58 f3d 865, 873 (2d cir 1995) AND SEE: BREWER V. RIDGLE 2018 U.S. DIST
LEXIS 131708 U.S.D.C. FOR THE EASTERN DISTRICT OF KANSAS PINE BLUFF-? 7 _
"DIVISION MAY 22,2018. FILED 5;17CV00177-BSM-JJV HARRIS V. SKINNER 2003 U.S.
DIST. LEXIS 18510 ,2003 WL 22384794.

5

MR.WASHINGTON DID PLACE THOSE DEFENDANTS AND THE WARDEN ON NOTICE OF A
SUBSTANTIAL RISK THAT HE WOULD VIOLENTLY ATTACK HE WAS GOING TO BE ASSAULT
BY THOSE OFFENDER AT CROSSROADS CORRECTIONAL CENTER AND THAT MR.WASHINGTON
REPORT THIS TO THE HOUSING UNIT OFFICIAL AND SENT LETTER BEFORE AND AFTER
TO WARDEN AND THE OTHER DEFENDANTS AND SENT LETTER TO THE WARDEN IN THIS
MATTER BUT THE DEFENDANT VIOLATION OF THE (JUDGE COURT ORDRR IN RELATIATION
AGAINST MR.WASHINGTON THE STATE OF MISSOURI WHEN THE PRISONER RELATIATION
AGAINST MR.WASHINGTON WAS REPEATEDLY AND SEVERAL ASSAULTED BY OTHER CROSS­
ROADS OFFENDER AND INMATE IN THE DORM AND THE (DORM) OFFICERS ARE ASSIGNED
TO WORK IN THE FOUR DORMITRIES AND DO NOT CONDUCT ROUND ON THE WING THAT
HE OR SHE WORK IN AND DEFENDANT KNEW OR SHOULD HAVE KNOWN THAT PLACING ONE
OFFICIAL OR GUARD ON DUTY IN THAT BUILDING OR THE GUMYARD MADE IT(HIGHLY
FORSEABLE THAT MR. WASHINGTON WOULD BE PHYSICALLY ATTACKED AND ASSAULT BY
THOSE INMATE OR OFFENDER BECAUSE OF THE BANING OF THE TOBACCO SMOKING AT
CIR.C.C.
THERE ARE OVER 150 INMATE IN THE SOMETIME 250 INMATE IN THE HOUSING UNIT
THAT VERY UNHAPPY ABOUT THE BANING OF THE TOBACCO SMOKING AT "() ("CRCC")
SUCH ACT VIOLATED PLAINTIFF CONSTITUTION RIGHT TO BE FREE FROM CRUL AND
UNUSUAL PUNISHMENT THIS CONDUCT DEPRIVE MR.WASHINGTON OF SEVER CONSTITUTION
RIGHT.
MR. WASHINGTON ASK THIS COURT TO REVIEW THE LAW ON THE SUMMARY JUDGMENT
THE DEFENDANTS MOTION FOR SUMMARY JUDGMENT SHOULD BE DENIED BECAUSE THE
DEFENDANTS VIOLATION THE JUDGE COURT ORDERED AND THE PRISONER OFFICIAL
HAVE X'DOTY UNDER THE EIGHT AMENDMENT TO PROTECT PRISONER VIOLENCE AT THE
HAND OF OTHER PRISONER SEE": FARMER V. BENNAN 511 U.S. 833, 114 , set 1970,
128 LED 2d 811 (1994).
MR.WASHINGTON HAVE A RIGHT TO BE FREE FROM CURL AND UNUSUAL PUNISHMENT
BY FAILING TO PROTECT HIM FROMA KNOWN THREAT WHICH HE WAS BALY BEATEN AND
BEGGED FOR HELP BUT THE GUARD REFUSED DEFENDANTS WERE.DELBERATELY INDIFFERENT
TO MR.WASHINGTON HEALTH AND SAFETY FAILING TO TAKE ANY REASONABLE MEASURES
TO PROTECT HIM FROM ASSAULT BY OTHER CROSSROADS OFFENDER AS A RESULT OF
DEFENDANT INDIFFERENCE ,MR.WASHINGTON WAS REPEATEDLY AND SEVERELY ASSAULTED
BY OTHER CROSSROADS OFFENDERS.
IN OCTOBER 2010,MR. WASHINGTON WAS TRANSFERRED TO CROSSROADS SHORTLY AFTER
MR. WASHINGTON ARRRIVED AT CROSSROADOS':' MEDICAL STAFF DIAGNOSED MR .WASHINGTON
WITH ASTHMA AND OTHER RESPIRATORY CONDITIONS,FROM AT LEAST 2010 THROUGH
APRIL 1 ,2018 MISSOURI DEPARTMENT OF CORRECTIONS POLICY BANNED TOBACCO
SMOKING INSIDE CORRECTIONS FACILITIES BETWEEN MR. WASHINGTON'S ARRIVAL
AT CROSSROADS AND OCTOBER 15, 2014 MR. WASHINGTON FILED NO FEWER THAN
EIGHT GRIEVANCES GENERALLY ASSERTING THAT CROSSORADS OFFICIALS FAILED TO
A®FE°SRULT O™1
OF RESPIRATORY DISTRESS.

6

ON OCTOBER 15,2014 MR. WASHINGTON FILED WASHINGTON I, ASSERTING CLAIMS
AGAINST SEVERAL CROSSROADS OFFICIAL FOR VIOLATING HIS EIGHT AMENDMENT
RIGHT BY BEING DELBERATELY INDIFFERENT TO HIS SERIOUS MEDICAL NEED TO BE
KEPT FROM EXPOSURE TO SECONDHAND SMOKE.
SPECIFICALLY, MR.WASHINGTON ALLEGED THAT THE WASHINGTON I DEFENDANTS REFUSED
TO TAKE ANY STEP PROTECT HIM FROM EXPOSURE TO SECONDHAND SMOKE DESPITE
KNOWING THAT CROSSROADS "MEDICAL STAFF DIAGNOSED AND TREATED MR. WASHINGTON
FOR ASTHMA AND OTHER SERIOUS RESPIRATORY CONDITITION, PRESCRIBING HIM
MEDICATION AND NON -PHARMACEUTICAL PRESCRIPTION KNOWN AS "LAY INS."
IN ADDITION TO MONETARY DAMAGE ,MR. WASHINGTON SOUGHT THIS COURT"S OF THE
UNITED STATE DISTRICT COURT FOR THE WESTERN DISTRICT OF MISSOURI FOR A
COURT ORDERED BANNING TOBACCO IN MISSOURI PRISON,ON APRIL 12 2017 ,A JURY
DETERMINED THAT MR. WASHINGTON PROVED HIS CLAIMS AGAINST FOUR PRISON OFFICIALS
ON SEPTEMBER 21, 2017 , AS A RESLT OF THE JURY"S VERDICT, THAT COURT ENTERED
A STIPULATED ORDER REQIRING MISSOURI PRISON TO BAN SELLING, POSSESSING, OR
CONSUMING TOBACCO PRODUCTS, ON OR ABOUT JANUARY 19,2017, BEFORE THE WASHINGTON
I TRIAL MR.WASHINGTON WAS ASSIGNED RICKY MCGLUEN AS HIS CELLMATE.
A. DEFENDANTS FAILED TO PROTECT MR. WASHINGTON FROM EXPOSURE TO SECONDHAND
SMOKE. PRIOR TO BEING ASSIGNED AS MR. WASHINGTON'S CELLMATE ,MR. MCGLUEN
HAD BEEN CITED SEVERAL TIMES FOR VIOLATING CROSSROADS"INDOOR SMOKING POLICY
DEFENDANTS WERE AWARE OF MR MCGLUEN"S PREVIOUS SMOKING VIOLATIONS FOLLOWING
MR.MCGLUENS ASSIGNMENT AS MR. WASHINGTON CELLMATE MR. MCGLUEN SMOKED TOBACCO
AND MARIJUANA REPEATELY IN MR.WASHINGTON "S CELL MR. WASHINGTON REPORTED
MR. MCGLUEN"S SMOKING TO DEFENDANTS IN PERSONAL CONVERSATIONS, LETTERS AND
THROUGH CROSSROADS ,GRIEVANCE PROCESS DEFENDANTS KNEW THAT COROSSROADO"S
MEDICAL STAFF HAD DIAGNOSED MR.WASHINGTON WITH ASTHMA AND OTHER RESPIRATORY
REQUIRING THAT MR. WASHINGTON NOT TO BE EXPOSED TO SECONDHAND SMOKE.
DEFENDANT ALSO KNEW THAT CROSSROADS MEDICAL STAFF HAD PRESCRIBED MR. WASHINGTON
A LAY IN FOR NONSMOKING CELLMATE TO PROTECT MR. WASHINGTON FROM EXPOSURE TO
SECONDHAND SMOKE IN PERSONAL CONVERSATIONS, LETTERS, AND THOUGHT CROSSROADS
GRIEVANCE PROCESS ,MR.WASHINGTON ASK DEFENDANTS TO CLOSELY MONITOR MR.MCGLUEN
SMOKING HABITS, ENFORCE CROSSROADS"INDOOR SMOKING BAN, AND ENFORCE MR.
WASHINGTON MEDICALLY-PRESCRIBED LAY IN FOR A NON SMOKING CELLMATE BY TRANSF­
ERRING EITHER MR. MCGLUEN OR MR.WASHINGTON TO ANOTHER CELL DESPITE KNOWING
THAT MR. WASHINGTON HAD AN OBJECTIVELY SERIOUS MEDICAL TO BE KEPT FROM
EXPOSURE TO SECONDHAND SMOKE, AND DESPITE MR. WASHINGTON REPEATEDLY REPORTING
MR. MCGLUEN SMOKING TOBACCO AND MARIJUANA IN MR. WASHINGGTON "S CELL,
DEFENDANTS FAILED TO TAKE ANY STEPS TO KEEP MR. WASHINGTON FROM EXPOSURE TO
SECOHHAND SMOKE.
AS A RESULT OF DEFENDANTS FAILURE TO TAKE REASOANBLE STEPS TO PROTECT MR.
WASHINGTON FROM HARM MR. MCGLUEN"S CONTINUED SMOKING IN MR. WASHINGTON CELL
CAUSED MR. WASHINGTON TO HAVE ADDITIONAL, LIFE- THREATENING ASTHMA ATTACKS.

7

B. DEFENDANTS FAILURE TO PROTECT MR. WASHINGTON FROM ASSAULT
PRIOR TO BEING ASSIGNED AS MR,WASHINGTON "S CELLMATE,MR. MCGLUEN HAD BEEN
CITED AT LEAST FIVE TIMES FOR ASSAULTING OTHE INMATES,DEFENDANTS WERE AWARE
OF MR. MCGLUEN"S PREVIOUS ASSAULTS ON SEVERAL OCCASION BETWEEN JANUARY 19,
2017 AND FEBRUARY 22, 2017 MR. MCGLUEN THREATEDNED MR. WASHINGTON WITH
PHYSICAL HARM FOR ASKING THIS COURT OF THE WESTERN DISTRICT OF MISSOURI
TO BAN TOBACCO IN MISSOURI PRISONS. ALSO ON SEVERAL OCCASION BETWEEN,
JANUARY 19,2017 AND FEBRUARY 22,2017 WASHINGTON INFORMED MR. MCBEE STHREATS
CAUSED HIM TO FEAR FOR HIS HEALTH AND SAFTY AND LIFE IN THE CELL ON YARD.
ON OR ABOUT JANUARY 19,2017 MR. WASHINGTON SENT A LETTER TO MS. PASH,MR.
BROOKE, MR.PAGE AND MCBEE STATING THAT MR. MCGLUEN"S. CONTINUED SMOKING IN
THE CELL WAS CAUSING TENSION BETWEEN MR. WASHINGTON AND MR. MCGLUEN AND
REQUESTING THAT EIGHT MR WASHINGTON OR MR .MCGLUEN BE TRANSFERRED TO ANOTHER
CELL AFTER RECEVING MR. WASHINGTON:S JANUARY 19,2017 LETTER, DEFENDANTS
REFUSED TO ASSIGN MR. WASHINGTON OR MR. MCGLUEN TO ANOTHER CELL OR OTHERWISE
RESPOND TO MR. MCGLUEN"S THREATS.
DEFENDANTS ALSO FAILED TO RESPOND TO MR. WASHINGTON "S OTHER COMMMUNICATIONS
ABOUT MCGLUEN"S THREATS ,OT TAKE ANY REASONABLE MEASURE TO PROTECT MR.
WASHINGTON FROM HARM ,ON OR ABOUT APRIL 6, 2017 MR. WASHINGTON SENT ANOTHER
LETTER TO MS. PASH MR. BROOKE , MR.PAGE AND MR. MCBEE AGAIN STATING THAT
MR. MCGLUEN"S CONTINUED SMOKING IN THE CELL WAS CAUSING TENSION BETWEEN MR.
WASHINGTON AND MR.MCGLUEN AND REQUESTING THAT EITHER MR. WASHINGTON OR MR.
MCGLUEN BE TRANSFERRED TO ANOTHER CELL AFCEIVING MR.WASHINGTON APRIL 6, 2017
LETTER DEFENDANTS REFUSED TO ASSIGN MR.WASHINGTON OR MR.MCGLUEN TO ANOTHER
CELL OR OTHERWISE RESPOND TO MR. MCGLUEN"S THREATS.
MR. WASHINGTON CONFIRMED VERBALLY WITH MR. BROOKE THAT MR . BROOKE RECIVED
MR. WASHINGTON "S LETTERS CONCERNING THE THREAT MR. MCGLUEN POSED TO MR.
WASHINGTON SAFETY.MR. WASHINGTON ALSO PERSONALLY INFORMED MS. PASH THAT
MR. MCGLUEN HAD THREATENED TO ASSAULT HIM,MR . BROOKE CONFIRMED THAT HE HAD
RECIVED THE LETTER AND ACKNOWLEDGED THAT MR. WASHINGTON HAD EXPRESSED CONCERNS
RELATED TO MR. MCGLUEN THREATENING AND INTIMIDATING CONDUCT, ON OR ABOUT
APRIL 12, 2017 WHEN MR. WASHINGTON RETURNED TO HIS CELL AFTER THE WASHINGTON
I TRAIL CONCLUDED, MR. MCGLUEN CONFORNTED MR. WASHINGTON FOR REPORTING MR.
MCGLUEN TOBACCO USE TO CROSSROADS OFFICIALS THEREAFTER, MR. MCGLUEN INTENSIFED
INTENSIFIED HIS THREATS TO HARM MR. WASHINGTON ON OR ABOUR APRIL 13,2017
JOHN DOE I A CROSSROADS CORRECTIONS OFFICER, CALLED MR. WASHINGTON TO AN
OFFICE IN HIS HOUSING UNIT AND REPORTED THAT CUSTODY STAFF HAD RECEIVED
THREAT AGAINST MR.WASHINGTON LIFE RELATED TO THE WASHINGTON I LAW SUIT, JOHN
DOE I TOLD MR. WASHINGTON THAT HE SHOULD"BE CAREFUL " AND TAKE CARE OF HIMSELF
BECAUSE CUSTODY STAFF WAS NOT MR. WASHINGTON'S BABYSITTER.".
AFTER ADVISING MR. WASHINGTON ABOUT THE INMATES"THREAT, JOHN DOE I FAILED TO
TAKE ANY REASONABLE MEASURE TO PROTECT MR. WASHINGTON FROM HARM ON OR ABOUT
APRIL 14 2017 MR. BROOKE CONDUCTED A MEETING WITH MR. WASHINGTON, MR MCGLUEN,
AND A HOUSING OFFICER.

8

DURING THE MEETING AND MR. BROOKE" PRESENCE, MR. WASHINGTON EXPRESSED
CONCERN ABOUT MR. MCGLUEN"S CONTINUED SMOKING IN THE CELL, DURING THE
MEETING AND MR. BROOKE PRESENCE, MR.MCGLUEN BECAUSE VERBALLY AND VISIBLY
UPSET WITH MR. WASHINGTON CALLING MR.WASHINGTON A RAT FOR REPORTING MR.
MCGLUEN SMOKING AND STATING HIS INTENTION TO CONTINUE SMOKING IN THE CELL
DURING THE MEETING AND MR. BROOKE" PRESENCE, BOTH MR, WASHINGTON AND MR.
MCGLUEN REQUESTED A TRANSFER TO ANOTHER CELL MR. BROOKE DENIED MR. WASHINGTON
AND MR. MCGLUEN REQUESTS TO BE TRANSFERRES AND FAILED TO TAKE ANY OTHER STEPS
TO ADDRESS MR MCGLUEN "S THREATS, AS THE MEETING CONCLUDED AND MR. WASHINGTON
AND MR. MCGLUEN LEFT THE MEETING ROOM ,MR MCGLUEN CONTINUED TO THREATEN
MR. WASHINGTON WITH PHYSICAL HARM IN MR. BROOKE PRESENCE,DEFENDANTS FAILED
TOTAKE ANY REASONABLE MEASURE TO PROTECT MR. WASHINGTON FROM HARM AFTER
LEARING OF MR MCGLUEN THREATS , LASTER THAT AFTERNOON, AFTER MR. WASHINGTON
AND MR. MCGLUEN RETURRNED TO THEIR CELL. MR MCGLUEN ASSAULTED MR. WASHINGTON
KICKING AND PUNCHING HIM AND HITTING HIM IN THE HEAD WITH A TELEVISION.
MR. MCGLUEN"S ASSAULT WAS A DIRECT RESULT OF DEENDANTS FALURE TO TAKE
REASONABLE MEASURE TO PROTECT MR. WASHINGTON FROM HARM. MR. MCGLUEN ASSAULT
LEFT MR. WASHINGTON WITH SERVER BRUISES ON HIS FACE AND HEAD SWELLING IN HIS
FACE AND SWELLING IN THE HEAD SWELLING IN HIS CHEST AND LEGS AND DENTAL
INJURIES DEFENDANTS EACH BECAUSE AWARE OF MR. MCGLUEN"S ASSAULT ON MR.
WASHINGTON BETWEEN THE DATE OF THE ASSAULT AND APRIL 16, 2017 , DEFEENDANTS
FAILED TO TAKE ANY REASONABLE MEASURE TO PROTECT MR. WASHINGTON FROM HARM
AFTER LEARNING OF MCGLUEN"S ASSAULT ON APRIL 16 2017 WHILE MR. WASHINGTON WAS
STILL (RECOVERING FROM THE INJURIES HE SUFFERED DURING MR. MCGLUEN"S ASSAULT
MR. WASHINGTON WAS ASSAULTED BY FOUR INMATE USING BARS OF SOAP HIDDEN INSIDE
SOCKS.
DURING THE ASSAULT ,MR.WASHINGTON"S ASSACKERS WARNED HIM TO " DROP THE FUCKING
LAWSUIT."THE INMATE ASSAULT WAS A DIRECT RESULT OF THE DEFENDANTS FAILURE TO
TAKE REASONABLE MEASURE TO PROTECT MR. WASHINGTON FORM HARM THE INMATES
ASSAULT LEFT MR. WASHINGTON WITH BRUISES TO HIS ARMS , LEGS HEAD AND FACE
BRUISED RIBS, A BROKEN ELBLOW, CUTS ON HIS TORSO AND FACE AND SHOULDER
HIP AND BACK OTHER PART OF HIS BODY AND ADDITIONAL DENTAL INJURIES, FOLLOWING
THE INMATE: ASSAULT MR. WASHINGTON CONTINUED TO SUFFER FROM MIGRAINE HEADACHES
AND DIZZINESS THAT MAKE IT DIFFICULT FOR MR. WASHINGTON TO EAT DOING THAT
TIME DEFENDANTS EACH BECAUSE AWARE OF THER INAMTE ASSAULT BETWEEN THE DATE OF
THE ASSAULT AND APRIL 19, 2017.
DEFENDANTS FALIED TO TAKE ANY REASONABLE MEASURE TO PROTECT MR. WASHINGTON
FROM HARM AFTER LEARING ABOUT THE INMATE , ASSAULT.
ON APRIL 19 2017 MR. WASHINGTON REPORTED TO AND INFORMED AND REPORTED
TO CORRECTION OFCR I EMPOLYEE ID NO EOl24638 THE REPORTING EMPOLYEE NAME
MR. JAY GUHLKE THAT CHARLES STAGNER A CROSSROADS INMATE THREATENED TO
ASSAULT MR.WASHINGTON FOR SUING TO REMOVE TOBACCO PRODUCTS FROM CROSSROADS

9

MR. GUHLKE JAY FAILED TO TAKE ANY REASONABLE MEASURE TO PROTECT MR.
WASHINGTON FROM HARM AFTER LEARNING ABOUT MR. STAGNER"S THREATS,LATEl
ON THE AFTERNOON OF APRIL 19 ,2017 MR. STAGNER ASSAULTED MR. WASHINGTON
STRIKING MR. WASHINGTON IN THE FACE AND HEAD AND OVER PART OF THE BODY
MR. STAGNER"S ASSAULT WAS A DIRECT RESULT OF THE DEFENDANTS FAILURE TO TAKE
REASONABLE MEASURE TO PRETECT MR. WASHINGTON FROM HARM MR. STAGNER"S ASSAULT
LEFT MR. WASHINGTON WITH BACK INJIRIES AND WITH BRUISES ,SWELLING, AND
FACE INJIRES DENTAL INJURIES AND A LARGE CUT NEAR HIS LEFT EAR AND DAMAGE
TO MR.WASHINGTON HEARING AID DEFENDANTS EACH BECAUSE AWARE OF MR. STAGNER "S
ASSAULT IN THE DAYS FOLLOWING THE ASSAULT AFTER THESE ASSAULT, MR.WASHINGTON
SOUGHT MEDICAL TREATMENT FOR HIS INJURIES FROM CROSSROADS INFIRMARY. PRIOR
TO THE ASSAULT,DEFENDANTS WERE AWARE OF THE SUBSTANTIAL RISK OF AN ASSAULT
PRIOR TO THE ASSAULT,DEFNENDANT, WITH DELBERATE INDIFFERENCE TO MR.WASHINGTON
NEED TO BE PROTECTED FROM ASSAULT,FAILED TO PROTECT MR. WASHINGTON .
DEFENDANTS FAILED TO PROVIDE MR., WASHINGTON WITH NECESSARY MEDICAL CARE
MR. WASHINGTON FILED A WRITTEN REQUEST FOR ADDITIONAL DENTAL EXAMINATION
OAND THREATMENT RELATED TO HIS INJURIES MR. WASHINGTON'S NEED FOR ADDITIONAL
DENTAL CARE WAS OBJECTIVELY SERIOUS WHEN MR.WASHINGTON SOUGH MEDIACL TREAT
MENT,IT WOULD HAVE BEEN OBVIOUS TO ALAYPERSON THAT HE NEEDED MEDICAL CARE
FOR FOR BRUISES AND CUTS TO HIS FACE AND HEAD AND ARM AND HIS DENTAL INJURIES.
MR.WASHINGTON"SREQUEST FOR ADDITIONAL DENTAL TREATMENT WAS DENIED, MR.
WASHINGTON FILED A GRIEVANCE APPEALING THE DENIAL OF HIS REQUEST FOR
ADDITIONAL DENTAL TREATMENT DESPITE MR. WASHINGTON REQUESTS, HE RECIVED
TRREATMENT FOR SIX (6) MONTHS AFTER INCURRING HIS INJURIES IN THAT TIME
MR. WASHINGTON"SDENTAL INJURIES BECAUSE (INFECTED), CAUSING HIM ADDITIONAL
PAIN AND REQUIRING MEDICAL TREATMENT THEREAFTER ,MR. WASHINGTON CONTINUED
TO SUFFER HARASMENT AND RETALATION RELATED TO WASHINGTON I .
THE DEFENNDANTS VIOLATION OF THE CIVIL RIGHT ACT, 42 U.S.C. 1983 DELIBERATE
INDIFFERENCE --FAILING TO TAKE REASONABLE MEASURE TO ENSURE MR. WASHINGTON
SAFETY WHEN MR. WASHINGTON HAD A SERIOUS MEDICAL NEED TO BE FREE FROM
EXPOSURE TO SECONDHAND SMOKE DEFENDANTS WERE AWARE OF MR. WASHINGTON "S
SERIOUS NEED DEFENDANTS WITH DELIBERATE INDIFFERNECE, FAILED TO TAKE REASON­
ABLE, MEASURE TO KEEP MR. WASHINGTON FRRE FROM EXPOSURE TO SECONDHAND SMOKE
AS A DIRECT RESULT OF DEFENDANTS INDIFFERENCE AND DELIBERATE INDIFFERENCE
MR. WASHINGTON WAS INJURED IN AN AMONIUNT TO BE ESTABLISHED AT TRIAL.
BECAUSE THE DEFENDANTS WAS WERE ACTING UNDER COLOR OF STATE LAW ,. MR .WASHINGTON
ARGUE THAT THE DOCUMENT SUPPORTING THIS CERTIORARI REVIEW THE EVIDENCE
SUFFICENT TO CREATE A GENUINE DISPUT WITH RESPECT WITH THESE CLAIMS MR.
WASHINGTON MEDICAL CARE THAT WAS DELAY IN MEDICAL CARE ONLY CONSTITUTES AN
EIGHT AMENDMENT VIOLATION WHERE THE MR.WASHINGTON CAN SHOW THE DELAY RESULTED
IN SUBSTANTIAL HARM SEE" OXENDINE V., KAPLAN 241 f3d 1273 , 1276 (10th cir
2001) QUATATION OMITTED THE SUBSTANTIAL HARM REQUIREMENT MAY' BE SATISFIED
BY LIFE LONG HANDCAPPED PERMANENT LOSS OR CONSIDERABLE PAIN SEE: GARRETT
V. STRAMAN 254 f3d 946, 950 (10 th cir 2001) SEE: ALSO ESTLLE 429 U.S. 104
105 DELIBERAT INDIFFERENCE IS MANIFETED BY PRISON PERSONNEL IN INTENTIONALLY
DENYING OR DELAYING ACCESS TO MEDICAL CARE.

10

WHEN THE DEFENDANTS ENTERS INTO A CONTRACTUAL RELATIONSHIP WITH THE
STATE PENAL INSTITUTION TO PROVIDE SPECIFIC MEDICAL SEVICES TO INMATE
IT IS UNDERTAKING FREELY AND FOR CONSIDERATION, RESPONSIBLITY FOR A
SPPECIFIC PORTION OF THE STATE"S OVERALL OBLIGATION TO PROVIDE MEDICAL
CARE FOR INCARCERATED PERSON IN SUCH A CIRCUMSTANCE, THE PROVIDER HAS
assomedyfreely;thelsame:liability as the state.similarly when a person
ACCEPTS EMPLOMENT WITH A PRIVATE ENTITY THAT CONTRACTS WITH THE STATE,HE
OR SHE IS A ACCEPTING THE RESPONSIBILITY TO PERFORM HIS DUTIES IN CONFORMITY
WITHTHE CONSTITUTION.
THE NURSES WERE ARGUABLY BEST STUALED TO OBSERVE MR. WASHINGTON HE WAS
DEAF OR HARD OF HEARING AND ALL WAY IN NEED OF A INTERPERTER FOR THE
MEDICAL UNIT WHICH THERE WAS NO INTERPRETER ON HAND FOR MR. WASHINGTON
TO HELP HIM TO COMMACATION WITH HIM ON HIS MEDICAL TREATMENT HE WAS ALL
WAY DENIED HIM A INTERPRETER DOING MEDICAL NOT ONLY BECAUSE THEY SAW HIM
?!? A DAILY BASIS KNEW OF HIS DIAGNOSIS ASTHMA AND WITNESS FIRSTHAND' HAVE
ASTHMATIC ATTACK FROM THE SECONDHAND SMOKE AND THE MEDICAL UNIT HAD A HARD
TIME COMMUNCATE WITH MR. WASHINGTON NO NURSE KNEWN SIGNL LANGANER.
MR. WASHINGTON HAVE RIGHT TO BE FREE FROM CURL AND UNUSUAL PUNISHMENT BY
FAILING TO PROTECT HIM FROM A KNOW THREAT WHICH HE WAS BADLY BEATEN AND
BEGGED FOR HELP BUT GUARD REFUSED SEE: BUTLER V. DURANT U.S.D.C. (D.S.C.)
CASE NO. 4-14-CV-02276-rmg AND SEE STATE V. NEBRASKA U.S.D.C. (D. NEB)
CASE NO. 4-12-CV-03115-j fb-tdt AND SEE: BERRY V. BOSS 900 f3d 1017.8th cir
2018 MR. WASHINGTON COMPLAINT AS EVIDENCE TO CONCLUDE THERE WERE MATERIAL
ISSUE OF FACT IN DISPUTE AS DISPUTE AS TO WHETHER AND HOW THE OFFICIALS
RESPONDED TO MR. WASHINGTON MULTIPLE COMPLAINTS OF SEVERAL PHTSICAL AND
HARASSMENT AND THREAT AND ASSAULT AND MAKE BY STRANER AND MR. MCGLUEN AND
THE OVER FOUR OFFENDER AT CRCC THAT WAS RETALIATION AND INTIMDATION AND THAT
HAD ASSAULT MR. WASHINGTON BECAUSE OF THE COURT GRANTED POST JUDGMENT INJUCTIVE
RELIEF THAT BAN SALE POSSESSION AND CONSUPTION OF TOBACCO PRODUCT IN
STATE OF MISSOURI .
IT IS WELL SETTLED THAT r,P]RISON OFFICIAL HAVE A DUTY TO PROTECT PRISONER
FROM VIOLENCE AT THE HAND OF OTHER PRISONER SEE: FARMER V. BRENNAN 511 u.s.
825, 828, 114 SCT 1970, 128 LED 2d , 811 (1994) QUOTING CORTES QUINONES V.
JIMENEZ-NETTLESHIP 842 f2d 556, 558 (1st cir 1977) SEE ALSO ROSS V. CORRECTION
OFICERS JOHN & JANE DOES 1-5- 610 f. app.x 75 76-77 (2d cir 2015) (SUMMARY
ORDER) VILANTE V. DEP"T OF CORR 786 f2d 516, 522-23 2d cir 1986. HOWEVER,
FOLLOWING THE SUPREME COURT"S DECISION IN KINGSLEY V. HENDRICKSON, SUPRA
U.S. ___ 135 SCT 2466 THE SECOND CIRCUIT ALTERED THE ANALYSIS UNDER THE
SECOND PRONG TO AN OBJECTIVE RATHER THAN A SUBJECTIVE STANDARD SEE: DARNELL
V. PINEIRO, SUPRA 849 f3d at 32-36 HOWARD V. BROWN, SUPRA 2018 U.S. DIST
LEXIS 126027, 2018 WL 3622986 at 4''UNDER THE CURRENT STANDARD THE PRSISON
NEED 0NLY" RECKLESSLY FAIL[ ] TO ACT WITH REASONABLE CARE TO MITIGATE
THE RISK THAT THE CONDITION POSED TO THE PRE TRIAL DETAINE WERE DEFENDANT
OFFICICAL KNEW OR SHOULD HAVE KNOW THAT THE CONDITION POSED AN EXCESSIVE
RISK TO HEALTH OR SAFETY HOWARD B. BROWN, SUPRA 2018 U.S.DIST LEXIS 126027
2018 WL 3611986 at 4 QUOTING DARNELL V. PINERO SUPRA 849 at 35 (EMPHASIS
ADDED) THIS STANDARD OF DELIBERATE INDIFFERENCE MEANS THAT SAME THING FOR
EACH TYPE OF CLAIM UNDER THE FOURTEENTH AMENDMENT DARNELL V. PINEIRO SUPRA
849 f. 3d at 33 n9.
11

WALKER V. WRIGHT 17CV-425(JCH) 2018 U.S.DIST. LEXIS 81408, 2018 WL 2225009
AT (D.CONN MAY15, 2018) (SAME STANDARD APPLIED TO UNCONSTITUTIONAL
CONDITIONS OF CONFINEMENT [*9] AND DELIBERATE INDIFFERENCE TO SERIOUS
MEDICAL NEED UNDER THE FOURTEENTH AMENDMENT :TAYLOR V. CITY OF NEW YORK
SUPRA, 2018 U.S. DIST LEXIS 52308 ,2018 WL 1737626 at *11 (SAME STANDARD
APPLIED TO A (FAILURE -TO-PROTECT CLAIM UNDER THE FOURTEENTH AMENDEMENT.
THE COURT HAVE FOUND THAT WHEN AN INMATE INFORMS CORRECTIONS OFFICERS
ABOUT A SPECIFIC FEAR OF ASSAULT AND IS THEN ASSAULTED,THIS IS SUFFICIENT
TO PROCEED ON A CLAIM OF FAILURE TO PROTECT SE: BECKLE V. BENNETT 05 CIV
2000 (JSR) 2008 U.S. DIST LEXIS 119857 , 2008 WL 821827 at *17(S.D.N.Y.)
MAR 26,2008)(RAKOFF D.J.) :SEE ALSO ROGERS V. SALIUS 16cvl299 (JCH) 2017
U.S DIST LEXIS 56396, 2017 WL 1370695 at 4-5 (D. CONN. APRIL 13, 2017)
THE COURT (DENYING MOTION TO DISMISS WHERE PLAINTIFF ALLEGED THAT PRISON
OFFICIALS KNEW OF A THREAT PRIOR TO THE ASSAULT AGAINST HIM): MORAGAN V.
DZURENDA 14cv-966 (VAB) 2017 U.S. DIST LEXIS 484 45, 2017 WL 1217092 at 6
(D.CONN, MAR 31,2017)(DENYING SUMMARY JUDGMENT WHERE PRISON OFFICIALS DENIED
PLAINTIFF"S REPEATED REQUEST FOR PROTECTIVE CUSTOD AND PLAINTIFF INFOEMED
THEM OF A SERIOUS THREAT HOURS BEFORE HE WAS ASSAULTED) HENRY V.COUNTY
OF NASSAU 13cv-7427(SJF)(APL) 2015 U.S. DIST LEXIS 62652 , 2015 WL 2337393
at 4 (E.D.N.Y. MAY 13, 2015) DENYING MOTION TO DISMISS AS TO PRISON OFFICIAL
ALLEGED.
TO BE PERSONALLY INVOLVED IN THE DECISION TO PLACE PLAINTIFFIN GENERAL
POPULATION RATHER THAN PROTECTIVE CUSTODY AFTER CREDIBLE THREAT OF GANG
RETALIATION MADE AGAINST PLAINTIFF SEE: LOJAN V. CRUMBSIE 12 CIV 320 (VB)
2014 U.S. DIST LEXIS 165637, 2017 WL 664370 at 4-5 (S.D.N.) OCT 6,2014
(BRICCETTI, D.J. ) ( DOWNGRADING PLAINTIFF PROTECTIVE CUSTODY STATUS COULD
CONSTITUTE DELIBERATE INDIFFERENCE IF.PRISON OFFICIAL WERE PERSONALLY AWARE
OF A SPECIFIC THREAT AGAINST PLAINTIFF (CALDWELL V. REYNOLDS N0.95cvl586
(RSP/RWS) 1997 U.S. DIST LEXIS 5254, 1997WL 14T671 at 1 ( N.D.N.Y. FEB 27,
1997) DENYING MOTION TO DISMISS WHERE PLAINTIFF ALLEGED [11] THAT HE WAS
PLACED IN GENERAL POPULATION OVER [HIS] PROTESTE THAT HE HAD EMEMIES THERE
WHO WISHED TO HURT HIM AND THAT AS A RESULT HE WAS SERIOUSLY ATTACKED.
ALL FACTUAL DISPUTES MUST BE RESOLVED IN FAVOR OF PLAINTIFF SEE: NEW YORK
EX REL. KHURANA V. SPHERION CORP 15 CIV 6605 (JFK) 2017 U.S.DIST LEXIS
61158, 2017 WL 1437204 at 3 ( S.D.N.Y. APR 21, 2017) WITH THIS DEFERENTIAL
STANDARD IN MINE THE COURT SHOULD FIND THAT PLAINTIFF COMPLAINT AND SUMMARY
JUDGMENT STATE A PLAUSIBLE FAILURE TO PROTECT CLAIM UNDER THE FOURTEENTH
AMENDMENT.
MR. WASHINGTON IN THIS CASE ALLEGES THAT THE INDIVIDUAL DEFENDANTS WERE
AWARE OF THE THREAT TO HIS PHYSICAL SAFETY WHEN THEY ORDERED HIM TO BE
PUT IN PROTECTIVE CUSTODY MR. WASHINGTON WAS AT RISK FROM OTHER INMATE AND
COULD NOT BE HOUSED INTHE GENERAL PRISON POPULATION FURTHEREMORE THE
PROPOSED AMENDED COMPLAINT ALLEGES PLAINTIFF WAS ASSAULT AND SUFFERED
SERIOUS INJURIES WITHIN WEEKS AFTER THE TRIAL AND THE (JUDGE COURT ORDERED
THAT WAS VIOLATED BY THE DEFENDANTS AND INMATE OR OFFDEREN WHILE DEFENDANT
MAY BE CORRECT THAT IT WAS REASONABLE TO PROTECT PLAINTIFF AND PUT HIM IN
PROTECTIVE COSTORDY )(AFTER SEVERLY INMATE ATTACK AND AND NOT BEFORE )
THE ASSAULT MR. WASHINGTON.
12

THE DEFENDANTS VIOLATION ON THAT COURT ORDERED DUE TO THE INSTITUTIONAL
SAFETY CONCERNS THAT IS A FACTUAL ISSUE THAT CANNOT BE RESOLVED AT THIS
EARLY PLADING STAGE DRAWING ALL REASONABLE INEFFERENCE IN FAVOR OF MR.
WASHINGTON PLAINTIFF THE PROPOSED TO HIM COMPLAINTIFF AND MOTION OF
SUMMARY JUDGMENT ALLEGATIONS TAKEN AS TRUE SUFFICIENTLY PLEAD THAT (1)
PLAINTIFF WAS INCARCATED UNDER CONDITION THAT POSED (2) A SUBSTANTIAL
RISK OF HARM TO HIS PHYSICAL SAFETY AND (3) THE INDIVIDUAL DEFENDANTS KNEW
OR SHOULD HAVE KNOWN OF THIS RISK AND FAILED TO MITIGATE IT.
DEFENDANTS PRINCIPALLY ARGE THAT THE POPOSED THIRD AMENDED COMPLAINT
DOES NOT STATE A CLAIM FOR DELBERATE INDIFFERENCE BECAUSE ITS FACTUAL
ALLEGATION ARE NOT TRUE DEFENDANTS MAINTAIN THAT PLAINTIFF FAILED TO DESCRIBE
ADEQATELY THE THREAT AGAINST HIM TO SHOW IT WAS SUFFICIENTLY SERIOUS UNDER
THE FIRST PRONG OF THE ANALYSIS AND THAT IT WAS IMPOSSIBLE FOR THE INDIVIDUAL
DEFENDANTS TO KNOW THERE WAS STILL A THREAT TO PLAINTIFF SAFETY WHEN THE
DEFENDANTS VIOLATION THE JUDGE COURT ORDERED PLAINTIFF SUCCES IN WASHINGTON
V. DENNEY 14-6118-cv -NKL ( WASHINGTON I ) IN WASHINGTIN I A JURY AWARDED
PLAINTIFF DAMAGES BASED ON ITS FINEING THAT PLAINTIFF SUFFERS FROM ASTHMA
AND THAT CERTAIN PRISON OFFICIAL DEFENDANTS VIOLATED PLAINTIFF RIGHT UNDER
FEDERAL LAW BY EXPOSING HIM TO TOBACCO SMOKE ADDITIONALLY IN WASHINGTON I
THE COURT ORDEREDED POST JUDGMENT INJUCTIVE RELIEF BANNING THE SALE POSSESSION
AND CONSUMPTION TO TOBACCO PRODUCTS IN MISSOURI PRISONS.
PLAINTIFF FILED THIS CASE PRO SE CLAINING PRIMARILY THAT DEFENDANTS FAILED
TO PROTECT HIM FROM ATTACK BY SERVELLY INMATE WHO WERE UNHAPPY WITH THE
TOBACCO BAN BROUGH ABOUT BY WASHINGTON I THAT DEFENDANTS FAILED TO PROTECT
HIM FROM AN ASSAULT AND ATTACK BY INMATE CHARLES STAGNER ON APRIL 19,2017
WHEN MR. WASHINGTON REPORT TO THEM THAT HE WAS THREAT AND GOING TO BE ATTACK.
HELLING V. KCKINNEY 509 u.s. 25, 34, 113 set 2475, 2481 LED 2d 22, 32 (1993)
(A) PRISONER NEED NOT TO WALT UNIT HE IS ACTUALLY ASSAULED BEFORE OBTAINING
RELIEF.. [T]he eight amendment proptects against sufficiently imminent
dangers as well as current unnecssary and wanton infliction of pain and
suffering this in the matter of mr. Washington cases on the sevealy assault
against mr. Washington at (C.R.C.C.).
STATEMENT OF ISSUE PRESENTED FOR REVIEW

POINT II
2. WHETHER THE DISTRICT COURT IN GRANTING AND THE 8th CIR COURT OF APPEAL
IMPROPERTLY DECIDED FACTUAL ISSIES IN VIOLATION OF THE JUDGE COURT ORDERED
THE DISTRICT HONORABLE JUDGE NAETTE K. LAUGHEY ORDERE THAT THE COURT GRANTED
(POST JUDGMENT INJUCTIVE RELIEF THAT BAN SALE POSSESSION AND CONSUMPTION
OF TOBACCO PRODUCT IN MISSOURI PRISONER IN WHICH THE JUDGE COURT THAT CASE
NO( 14-6118-cv KNL ) WASHINGTON I WASHINGTON) V .DENNiENW THE DEFENDANTS VIOLATION
MR. WASHINGTON FIRST AMENDENT RIGHT TO PROTECT HIS PRIOR TREATMENT AT (C.R.C.C.)
IN ADDITION THE RIGHT TO PROTECT OR TO CHALLENGE CONDITION OF INCARCRATION
IS CLARLY ESTABLISHED UNDER THE 1ST FIRST AMENDMENT AND IT IS UNCONSTITUTION
TO RETALIATE AGAINST AN INMATE FOR DOING SO. BY RELAIATION, ASSAULT AND
HARASSMENT, INTIMIDATION THE DISTRICT ABUSED ITS DISCRETION AND VIOLATED MR.
WASHINGTON DUE PROCESS BY NOT (HOLDING A HEARING) WHEN THE PLAINTIFF REQUEST
THE DISTRICT COURT TO HOLD DEFENDANTS IN CONTEMPT FOR FAILURE TO COMPLY WITH
THE PRIOR COURT ORDERED ON POST JUDGMENT INJUCTIVE RELIEF THAT BANING SALE
POSSION AND CONSUMPTION TO TOBACCO PRODUCT IN MISSOURI PRIONS.
argument

13 .

MR. WASHINGTON ARGUE THAT IN WITH RESPECT TO THIS CASE IT INVOLUM THAT
THE VIOLATION OF THE JUDGE COURT ORDERED GRANTED POST JUDGMENT INJUCTIVE
RELIEF THAT BAN SALE POSSESSION AND CONSMPTION OF TOBACCO PRODUCT IN
MISSOURI PRISON,AND RELALALIATION AND ASSAULT ON MR. WASHINGTON AFTER THE
COURT TOLD THE DEFENDANT NOT TO VIOLATION THE COURT ORDER AND TO COMPLY WITH
IT , PLAINTIFF HAD POINT TO EVIDENCE IN THE RECORD WHICH SUGGEST A IN THE
POST JUDGMENT INJCTIVE RELIEF IT STATE TO THE DEFENDANTS AND WAS ORDERED
TO THEM THAT (1) NO RETALIATION (2) NO ASSAULT (3) HARASSMENT (4) INTIMIDATION
(5) NO THREATING THE PLAINTIFF .
MR. WASHINGTON HIS FIRST AMENDMENT RIGHT TO PROTECT HIS PRIOR TREATMENT
AT ("CRCC") IN ADDITION THE RIGHT TO PROTECT OR TO CHALLENGE CONDITION OF
INCARCERATION IS CLARLY ESTABLISHED UNDER THE (1ST FIRST AMENDENT) AND IT
IS UNCONSTITUTIONALLY TO RETALIATE AGAINST AN INMATE FOR DOING SO THUS
DEFENDANTS WAS NOT ENTIELED TO ANY QUALIFIEF IMMUNITY WITH RESPECT TO THE
VIOLATION OF THE JUDGE COURT ORDERED ON APRIL l_j_ 2017 THE MISSOURI BAN TOBACCO
IN MISSOURI PRISON AND THE ASSAULT ON MR. WASHINGTON.
MR. WASHINGTON FACTUAL ALLATION IN THE ABOVE THAT DEFENDANTS VIOLATION THE
COURT ORDERED THE 18 U.S.C. 401 (FAILURE TO OBEY COURT ORDER CONSTITUTES
CONTEMPT PUNISHABLE BY FINE OR IMPRISOMENT) GENERALLY THE COLLATERAL BAR
RULE REQUIRES THAT THE JUDGE ORDER BE FOLLOWED THE COLLATERAL BAR RULE
PROVIDES THAT A DEFENDANTS MAY NOT VIOLATE A COURT ORDER AND THEN GHALLEGE
THE ORDER"S CONSTITUTIONALITY AS A DEFENSE IN A CONTEMPT PROCEEDING .SEE
WALKER V. CITY OF BIRMINGHAM 388 u.s. 307 , 320-21 (1967) (EVEN IF COURT
ORDER VIOLATED CIVIL RIGHT PARTY SHOULD HAVE FOLLOWED ORDER UNTIL OVER-TURNED)
SEE: E.G. ACEVEDO-GARCIA V. VERA -MONROIG 368 f3d 49, 58, (1st cir 2004)
(EVEN IF PARTY BE BELIVED IT SHOULD HAVE RECIVED AUTOMATIC STAY PARTY COULD
NOT CHALLENGE ORDER"S VALIDITY BY VIOLATION IT): IN RE CRIM CONTEMPT PROCEED­
INGS, CRAWFORD 329 f3d, 131 138-39 (2d cir 2003) (EVEN IF PROTESTERS BELIVED
TEMPORARY RESTRAINING ORDER HAD EXPIRED, PROTESTERS STILL REQUIRED TO COMPLY
WITH): HARRIS V. CITY OF PHOLA 47 f3d. 1333, 1338 (3d cir 1995) (EVEN IF PARTY
BELIVED COURT ORDER INCORRECT, ABSENT,STAY, PARTY MUST FOLLOW ORDER PENDING
APPEAL) CHAO V. TRANSOCEAN OFFshore, INC 276, f3d 725, 728 (5th cir 2002)(
EVEN IF PARTY BELIVE COURT ORDER ERRONEOUS PARTY OBLIGED TO OBEY UNLESS IT
OBTAINED STAY)( U.S. V. HENDRICKSON 822 f3d 812 (6th cir 2016).
(DEFENDANT MUST OBEY COURT ORDER, EVEN IF HE OR SHE BELIVED ORDER VIOLATED
CONSTITUTIONAL RIGHT BECAUSE DEFENDANTS HAD ADEQUATE OPPORTUNITY FOR APPELLATE
REVIEW): JOHNSON V. MERRILL LYNCH PIERCE, FENNER & SMITH, INC 719 f3d 601
606-07 (7th cir 2013) ( EVEN IF PARTY BELIVES ORDER IS INCORRECT, PARTY MUST
COMPLY OR BE HELD IN CONTEMPT): INT"1 bhd of elec workers local union no.
545 v. hope elec corp 293 f3d 409 417-18 ( 8th cir 2002) (EVEN IF PARTY
BELIVED COURT ORDER INCORRECT,PARTY SHOULD HAVE COMPLIED, AND COURT"S
IMPOSITION OF SANCTIONS FOR NONCOMPLIANCE NOT ABUSE OF DISCRETION): IRWIN
V. MASCOTT 370 f3d 924, 931 (9th cir 2004^) (even if violator of injunctive)
IS NONPARTY NON PARTY NUST STILL COMPLY WITH ORDER BECAUSE NONPARTY HAD
NOTICE OF INJUCTION)(U.S. V. STRAUB 508 f3d 1003, 1010-ll(llth cir 2007)
(EVEN IF PARTY BELEVED ADEQUATE AND SPECIFIC REMEDIES DID NOT EXIST, PARTY
MUST STILL COMPLY WITH ORDER).

14

MR. WASHINGTON ARGUE THAT THE POST JUDGMENT INJUCTIVE RELIEF WAS VIOLATION
MISSOURI ("CRCC") CENTER DIDNOT COMPLY WITH IT MISSOURI SHOULS NOT HAVE
VOLATION THIS ORDER STAFFMEBER RELALIATION AGAINST AND PRISONER RELALAITION
AGAINST MR. WASHINGTON WAS REPEATEDLY AND SEVERAL ASSAULTY BY OTHER ('’CRCC")
OFFENDER DEFENDANTS WERE AWARE AND WAS DELIBERATE INDIFFERENCE TO MR.
WASHINGTON HEALTH AND SAFTY FAILING TO TAKE ANY REASONABLE MEASURE TO PTOTECT
HIM FROM SEVERLY ASSAULT BY THOSE CROSSROADS OFFENDER AND STAGNER AND MR.
MCGLUE.
THE UMDISPUTED EVIDENCE CONTAINED WITH MR. WASHINGTON ARGUMENT THERE IS
GENUINE ISSUE AS TO MATERIAL FACT BECAUSE THE DEFENDANTS VIOLATION THE
JUDGE COURDED ON GRANTED POST JUDGMENT INJUCTIVE RELIEF BAN SALE POSSESSION
AND CONSUMPTION OF TOBACCO PRODUCT IN MISSOURI WHEN THE STATE OF MISSURI
INMATE AND SOME OFFENDERS ASSAULT MR. WASHINGTON IN BAN SALE TOBACCO WHICH
MR. WASHINGTON INJURIES TO HIS FACE AND HEAD AND HIS BODY AND TOOK ALL OF
MR. WASHINGTON PERSON PROERTY DEFENDANTS WERE DELIBERATEY INDIFFERENCE TO
MR.WASHINGTON HEALTH AND SAFTY AND HIS PERSON PROPERTY FAILING TO TAKE ANY
REASONABLE MEASURE TO PROTECT HIM FOR ASSAULT AND BY OTHER OFFENDERS.
PRIOR TO THE ASSAULT DEFENDANTS WERE AWARE OF THE SUBSTANTIAL RISK WHEN THE
FIRST ASSAULT HAD HAPPLY TO MR. WASHINGTON BY CELLMATE MR. MCGLUEN AND MR.
STAGNER PRIOR TO THE ASSAULT DEFENDANTS WITH DELIBERATE INDIFFERENCE TO MR.
WASHINGTON NEED TO BE PROTECTED FROM ASSAULT FAILED TO PROTECT MR. WASHINGTON
AS A DIRECT RESULT OF DEFENDANTS DELIBERATE INDIFFERENCE MR. WASHINGTON WAS
INJURED INAN AMOUNT TO BE ESTABLISHED AT TRIAL AT ALL RELEVANT TIME DEFENDANTS
WERE ACTING UNDER COLOR OF THE STATE LAW MR. WASHINGTON MEDICAL NEED AS A
RESULT OF THE ASSAULT MR. WASHINGTON ENDRED HE HAD A SERIOUS MEDICAL NEED
FOR DENTAL CARE AND ASSAULT THAT WAS DISGONOSED BY A PHYSICIAN AND WAS SO
OBVIOUS THAT EVEN A LAY PERSON WOULD EASILY RECOGNIZE THE NECESSITY FOR A
DOCTOR"S ATTENTION DEFENDANTS WERE AWARE OF MR. WASHINGTON SERIOUS MEDICAL
NEEDS DENTAL CARE AND FOR THE FIRST ASSAULT UPON MR.WASHINGTON AND SECOND
ASSAULT ON MR. WASHINGTON AND THE THRIE ASSAULT UPON MR. WASHINGTON.
DEFENDANTS WITH DELIBRATE INDIFFERENCE FAILED TO PROVIDE THE DENTAL CARE
AND THE ASSAULY ON'HIM AND MEDICAL CARE THAT MR. WASHINGTON NEEDED WITHIN
A REASONABLE TIMES DEFENDANTS WERE AWARE OF MR. WASHINGTON SERIOUS MEDICAL
FROM THE ASSAULT BY OTHER INMATE AT CROSSROADS CORR. CENTER INJURIES TO
WASHINGTON MOUTH AND FACE AND BACK AND EAR AND HIS EYES INJURIES ON HIS
BODY WITHIN A REASONABLE TIME MR.WASHINGTON HAD REPORTED THAT HE WAS GOING
TO BE ASSAULT AND LATE THE AFTERNOON .
ON APRIL 19,2017 MR.STAGNER ASSAULTED MR. WASHINGTON SERIOURS STRIKING AND
KITING MR. WASHINGTON IN THEFACE WITH HIS GLASS ON HIS FACE CAUSE SERIOUS
INJUIE TO HIS EYE AND FACE AND BACK. MR.STAGNERS ASSAULT WAS A (DERICT RESULT
OF THE DEFENDANTS VIOLATION AND THE INMATE VIOLATION JUDGE COURT ORDERED)
IN NOT TO ASSAULT OR ATTACKS OR RELAITION OR INTIMDATION MR. WASHINGTON
THIS WAS A DIRECT RESULT OF THE DEFENDANTS FAILURE TO TAKE REASONABLE MEASURE
TO PROTECT MR. WASHINGTON FROM HARM IN THE FIRST ASSAULT AND SECOND AND THIRD
AND FOUR AND FIFTH AND SIXTH ASSAULT ON MR. WASHINGTON .

15

MR.STAGNER ASSAULT WAS A DIRECT RESULT OF THE DEFENDANTS VIOLATION THE
JUDGE COURT ORDERED IN NOT TO ASSAULTTMR. STRANGER ASSAULT LEFT MR.
WASHINGTON WITH BRUISES SWELLING WITH A DEEP 1.25 INCH CUT ON INSIDE HIS
MOUTH REUIRED STITCHES FOR DAYS AFTER WARDS MAKING IT DIFFICUIT OR
IMPOSIBLE TO EAT MIGRAINE HEADACHES AND DIZZINEE SEVEN ( BRUSED RIB) AND
AND RESULT IN BACK AND SPINCE PROBLEM FACE INJURIES TO EYE AND RESULT OF
TWO TEETH ARE LOOSE NO MEDICAL TREATMENT AND ADDITIONAL DENTAL INJURIES
AND LARGE CUT NEAR LEFT EAR WHICH THE DEFENDANTS EACH BECAUSE AWARE OF
MR STAGNER SERUOIS ASSAULT ON MR. WASHINGTON AFTER ASSAULT WASHINGTON SOUGH
MEDICAL TREATMENT FOR HIS INURIES DROM CRCC INFIRMARY BUT WAS DENIED MEDICAL
CARE IN RELALIATION FOR SEEKING A TOBACCO BAN CRCC WHICH MR. STAGNER ASSAULT
WAS ON V-TAPE AND A DIREXT RESULT OF HIS RELAIATION FOR SEEKING A TOBACCO BAN
("CRCC") THAT THIS PRISONER AND THE STATE OF MISSOURI DEFENDANTS VIOLATION
THE JUDGE ORDER , COURT ORDERED AND FAILED TO COMPLY THE DEFENDANTS IN THE
FAILURE TO PROTECT MR. WASHINGTON SUSTANIED DEGAME TO HIS PERSONAL HEARING
AID THAT HE PAY $6000. DOLLOR FOR AND BRUISES SWELLING AND LARGE CIU NEAR
LEFT EAR BY THE OFFENDER MR. STAGNER ASSAULT.
MR.WASHINGTON SOUGH AN ORDER ADJUDGING RESPONDENT PRISON OFFICIALS IN
COMTEMPT OF COURT ORDER FOR DISOBEYING A PRIOR COURT ORDEREDE IN WASHINGTON
LAW SUIT THE THESE DEFENDANTS (INGORES) THAT COURT ORDERED IN THIS CASE THE
DISTRICT AND THE EIGHTH CIR COURT OF APPEAL ABUSED ITS DISCRETION AND VIOLATION
MR. WASHINGTON DUE PROCESS BY NOT HOLDING A HEARING THE PLAINTIFF REQUEST
THE DISTRICT COURT TO HOLD DEFENDANTS IN COTEMP FOR FAILURE TO COMPLY WITH THE
PRIOR COURT ORDERED ON THE JUDGE GRANTED POST JUDGMENT INJUCTIVE RELIVEF
THAT BANING SALE POSSION AND CONSUMPTION OF TOBACCO PRODUCT IN MISSOURI
PRISONER AND IN :?HER COURT ORDERED THAT NO ONE IS TO ASSAULT MR. WASHINGTON
OR HARASMENT OR INTIMIDATION OR RELALIATION AGAINST MR. WASHINGTON SEE:
MERCER V. MITCHELL 908 f2d ,763 UHlT€D STATE COURT OF APPEAL FOR THE ELEVENTH
CIRCUIT AUGUST 8}.3)990 NO . 89-8267 ON THIS APPEAL AND IN THE DISTRICT COURT
SUOGH TO HOLS THE DEFENDANTS IN CONTEMPT FOR FAILING TO ABIDE BY THE TERMS OF
THE COURT ORDERED BECAUSE MR.WASHINGTON WAS ASSAULT AS DIRECT RESULT OF THE
THE DEFENDANTS FAILING ABIDE BY THE TERM OF THAT COURT ORDERED THE DEFENDANTS
FAILING TO ABIDE BY THOSE TERMS OF JUDGE ORDER IN THE FISRT LAW SUIT IN
THAT COURT ORDERED IN WASHINGTON I WASHINGTON V. DENNEY .

.

MR. WASHINGTON ARGUE THE PRISON OFFICIAL EXHIBITED DELIBERATE TO MR.
WASHINGTON HEALTH AND SAFETY FAILURE TO PROTECT AND NOT FOUNDING THE
JUDG COURT ORDERED SEE:DE"LONT V. ANGLEONE 330 f3d 634 ( 4th cir 2003)
(INTERNAL QUOTATION MAKRS OMMED) A PRISON OFFICIALS IS DELIBERATE
INDIFFERENCE IF HE OR SHE KNOW OR AND DISREAGRADS AND EXCESSIVE RISK
TO INMATE HEALTH OR SAFETY SEE: BROWN V. N.C. DEP"T CORR 612 f3d 720, 723
360 FED APPX 494 (4th cir 2010). THAT THE DEFENDANTS IN MR. WASHINGTON
CASE THE CONSTITUTIONALLY IS VIOLATION WHERE DEFENDANTS KNOW OF THE DAMGER
OR WHERE THE THREAT OF VIOLENCE IS SO SUBSTANTIAL OR PREVASIVE FAIL TO
EMBRACE A POLICY OR TAKE OTHER REASONABLE STEP WHICH MAY HAVE PREVENTED
THE HARM SEE: CLEM V. LOMEL 566 f3d 1177, 1181 -82 (9th cir 2009)(JURY
IN ASSAULT CASES SHOULD HAVE BEEN INSTRCTED THAT DEFENDANTS FAILURE TO ACT
AS WELL COULD SUPPORT FAIDING OF DELIBERATE INDIFFERENCE. AND SEE: FARMER
V. BRENNAN 511 U.S. AT 828, 834-47, 114 set 1970 (1994) ACCORD GOKA V.
BOBBITT 862 f2d ,646,651, (7th cir 1988) .

16

POINT III
MR. WASHINGTON FACTUAL ALLEGATION FOR ISSUE FOR REVIEW UNDER THE SUPREME
COURT THE UNITED STATE HOUSTON V. LACK 487 U.S. 266 IMPROPERLY DECIDED
FACTUAL ISSUE BY THE DISTRICT COURT AND THE EIGHTH CIRCUIT OF APPEAL.
MR. WASHINGTON FILED AND ARGUE TO THE DISTRCIT COURT FOR THE WESTERN
DISTRICT OF MISSOURI ST. JOSEPH AND THE EIGHTH CIRCUIT OF APPEAL
ASK THOSE TWO COURT TO RECONSIDE SAID ORDERED ACCORDING TO THE LAW OF
TIMELY FILED A DOCUMENT MUST BE RECIVED BY THE COURT CLERK WITHIN THE
TIME SPECIFIED FOR FILING EXCEPT THAT ANY DOCMENT SHALL BE DEEMED TIMELY
FILED IF IT HAD BEEN DEPOSITED IN THE UNITED STATE POST OFFICE OR PRISON
MAIL BOXS WITH FIRST CLASS POSTAGE PREPAID AND PROPERTY ADDRESSED TO THE
CLEARK OF THE COURT WITH IN TIMLY ALLOWED FOR WHICH THE RULE OF THE COURT
AND THE SUPREME COURT OF UNITED STATE SEE: HOUSTON V. LACK 487 U.S. 266.
THE DISTRIC COURT DISMISS MR. WASHINGTON LAW SUIT BECAUSE THE COURT SAID
IN IT ORDER THAT MR.WASHINGTON DID NOT TIMELY FILED THE DOCMENT WHICH
MR. WASHINGTON DID FILED IN A TIMELY FILED THE DOCMENT AND PUT IT IN
PRISON MAIL BOXS.
IN SUPPORT OF APPELLANT WOULD STATE THE FOLLOWING CASE FOR REVIEW
AND POINT FOR RELIEF THAT UPON THE COURT REVIEW OF THE COURT FEBRUARY
5, 2020 ORDERE APPELLANT WHICH THE APPELLANT DID EXPLAINING TO THE COURT
THE ATTACHED DECLARATION IN THE MAIL AND APPELLANTS PAGES INCUDED WITH
MR. WASHINGTON LETTER WERE HIS SUGGESTIONS IN OPPOSITION TO DEFENDANTS
MOTION FOR SUMMARY JUDGMENT DOC 76 ATTACHED EXHIBIT DOC, 76-1
AND MR.WASHINTON MOTION FOR PARTRIAL SUMMARY JUDGMENT DOC 77. THE DISTRICT
NEVER RULE ON MR.WASHINGTON MOTION FOR SUMMARY JUDGMENT ON HIS ARGUMENT
ON MR. WASHINGTON ARGUE THAT DEFENDANTS WAS NOT INTIRE TO QUALIFIED IMMUNITY
AND A SUMMAR JUDGMENT AND THE JUDE BY LAW MUST MAKE FACT FINDIND TO
RESOLUTION THE DISPUTE ON THE QUALIFIED IMMUNITY THE LAW REQURT IT.
ON JANUARY 2,2020 DEFENDANTS MOVER FOR SUMMARY JUDGEMENT ON THE SOLE
REMAINING CLAIM THAT FAILED TO PROTECT MR. WASHINGTON WHEN THE DEFENDANTS
VIOLATION AND FAILED TO COMPLY WITH THE TERMS OF THE COURT ORDERED WHEN
SEVERAL ATTACK BY INAMTE BY CHARLES STAGNER AND MR.WASHINGTON CELLMATE
AND FOUR OTHER ASSAULT MR. WASHINGTON WHICH THE DEFENDANTS DIDNOT ABODE BY
TERMS OF THAT COURT ORDERED.
ON FEBRUARY 3, 2020 THE COURT RECIVEDA LETTER FROM MR. WASHINGTON STATEDING
THAT HE GAVE HIS SUGGESTION IN OPPSITION TO DEFENDANTS MOTION FOR SUMMARY
JUDGMENT TO PRISON OFFICIAL MRS. TAMMY MARTIN WHICH WHO NOTARY PUBLIC
PUT IN THE PRIOSN MAIL BOXS SEE: EVIDENCE OF THE SUBSCRED AND SWORN TO
BEFORE ME THIS UNDER SINGED NOTARY PUBLIC THIS DAYS 1-15-20 BY MRS TAMMY
MARTIN DOC 76 PAGE 11 OF 13 AND DOC. 76-1 PAGE 5- of- 85 AND DOC 77
PAGE 22-24 THIS EVIDENCE THIS WAS SENT OUT ON THIS DAY OF 1-15-20 AND

17

CERTIFICATE OF SERVICE TO THE COURT AND THE ATTORNEY GENERAL AND DISTRICT
COURT AND THE PAPERS WERE RETURNED TO MR. WASHINGTON AS UNDELIVRABLE
ON JANARUARY 30,2020 DOC .75.
INCLUDED WITH MR. WASHINGTON LETTER WERE HIS SUGGESTION IN OPPOSION TO
DEFENDANTS MOTION FOR SUMMARY JUDGMENT DOC 76 ATTACHED EXHIBIT DOC. 76-1
AND PLAINTIFF MOTION FOR PARTRIAL SUMMARY JUDGMENT DOC 77.
1. THE EVIDENCE CONTANING THERE TURNED PAPERS WHICH THE POST OFFICIAL HELD
FOR 15 DAYS WAS ADDRESSED TO CLERK OFFICE UNITED STATE DISTRICT WESTERN
DISTRICT OF MISSOURI ST.JOSEPH DIVISION 1501 WHITTAKER COURT HOUSE,KANASA
CITY MISSOURI 64106 DOC 76-1 ALTHOUGHT PLAINTIFF INCLUDED IN THE MAILING
ADDRESS A SUITE NUMBER 1501 HE DID NOT PROVICE A STREET NAME AND NUMBER
AND HIS INCLUSION OF ST. JOSEPH DIVISION IN THE MAILING ADDRESS LIKELY
CAUSED FURTHER CONSION AS TO THE INTENDED DESTINATION ON THE MAIL.
MR. WASHINGTON HAVE RECIVE THREE (3) ENVELPOE FROM THE UNITED STATE7DISTRICT
COURT WESTERN DISTRICT OF MISSOURI KANSAS CITY MO. 64106 OFFICIAL BUSINESS
ENVELPOE CONTANINING THIS SAME ADDRESSES FOR THE DISTRICT IN. IT THE COURT
RECORD AND DOCMENT SEE: EXHIBIT A-l AND 2-3.
THE JUDGE STATED IN HER COURT ORDERED IMPROPERLY DECIDED FACTUAL ISSUES
IN HER COURT ORDERED THAT MAILING ADDRESS LIKLY CAUSED FURTHER CONFUSION
AS TO THE INTENDED DESTINATION OF THE MAIL IT DIDNOT CAUSED ANY CONFUSION
AS WHEN THE DISTRCIT COURT SENT THIS OFFICIAL BUSINESS ENVELPOE TO MR.
WASHINGTON AND MR. WASHINGTON ONLY USED WHAT THE COURT ADDRESS ON THE
ENVEPOE THAT WAS MAIL AND SEND TO HIS AND SEE:EXHIBIT A-4 IN THE COURT
FILED OF MR. WASHINGTON MOTION TO THE DISTRICT COURT WHICH MR. WASHINGTON
HAD NO PROBLEM BEFORE SENT THIS TO DISTRICT COURT
MR.WASHINGTON SENT THE ORIGINAL PETITION AND ONE COPY WAS SENT TO THE
ATTORNEY GENERAL OFFICER AND THE COURT WAS HAND DELIVED TO PRISON OFFICIAL
UNTILIZING THE INSTITUTIONAL LEGAL MAIL SYSTEM WITH ATTACHED POSTAGE
PREPAID BY UNITED STATE POSTAGE STAMP $8.00 DOLLAR YOU CAN SEE FRO M THE
LEGAL MAIL TO THE COURT THAT IT WAS STAMP BY THE POST OFFICIAL ON 1-15-20
THIS PETITION WAS MAIL ON TIMES' THIS ENVELPOE WAS ADDRESSED TO THE UNITED
STATE DISTRICT COURT FOR WESTERN DISTRICT OF MISSOURI 1501 WHITTATE
COURT HOUSE KS, CITY MO. 64106.
ON January 31 2020 MR. WEHRY , VINCENT UTS CALL THE DISTRICT COURT
WHEN THE MOTION FOR SUMMARY JUDGMENT AND THE OVER PAPER CAME BACK
CLERK OF THE COURT TALK TO MR WEHRY ON JAN 31 ,20 AND AND THE CLERK COURT
TOLD HIM TO HAVE MR. WASHINGTON TO MAIL IT BACK TO THE COURT AND I DID
SO AND THE COURT REVIEW THE RECORD IT WILL SEE IN THE COURT FILED AND
THE PHONE CALL THAT MR. WEHRY CALL TO COURT.THE PHONE RECORD SHOW THEM
ON THAT DAYS MR. WASHINGTON SENT IT CERTIFIED AND WITH POSTAGE OF $ 23.25
AND THE TRACKING NO. 9271 2901 1220 3901 0082 83 AND ON JAN 15,20
MR. WASHINGTON DID IN FACT TIMELY FILED MY ORIGINAL MOTION SUGGESTION

18

INOPPISITION TO DEFENDANTS MOTION FOR SUMMARY JUDGMENT AND A LETTER
FROM PLAINTIFF STATEDING THAT HE GAVE HIS SUGGESTION IN OPPOSTION TO
DEFENDANTS MOTION FOR SUMMARY JUDGMENT TO MRS TAMMY MARTIN ON JANUARY
15,2020 TO MAILING ON JAN15,20 IN THE PRISON MAIL BOXS AND THE PAPERS
WERE RETURNED TO MR. WASHINGTON AS UNDELIVABLE ON JAN 30,2020 DOC.75
AND INCLUDED MOTION FOR SUMMARY JUDMENT DOC.76 ATTACHED EXHIBIT 76-1
AND MR. WASHINGTON'MOTION FOR PARTRIAL SUMMARY JUDGMENT DOC.77.
ME. WASHINGTON ACTUALL THAT HE INNCENT OF THE CHARGE AND WAS
MY
FAULT THE ORIGINAL MOTION WAS NOT RECIVED BY THIS DISTRC.IT COURT THAT MR.
WASHINGTON SEND IT TO COURT.
STATEMENT OF ISSUES PRESENTED FOR

REVIEW

POINT VI
THE PLAINTIFF FACTUAL ALLEGATION RAISE A MATERIAL ISSUE EIGHTH CIRCUIT
FINDS VERIFIED COMPLAINT DEFEATE SUMMARY JUGMENT MOTION IN FAILURE TO
PROTECT CASES
WHETHER THEiEIGHTH CIRCUIT OF APPEAL DEFEATE SUMMARY JUDGMENT MOTION IN
FAILURE TO PROTECT CASE ON AUGUST 20,2018 THE EIGHTH CIRCUIT COURT OF
APPEAL REJECTED AN APPEAL FILLED BY OFFICIALS AT THE NORHEAST ARKANASA
COMMUNITY CORRECTIONS CENTER (NEACCC) IN A LAW SUIT ALLEGING THEY HAD
FAILED TO PROTECT A PRISONER FROM BEING PHYSICALLY AND SEXUALLY HARASSED,
THREATEDEND ANS ASSAULTED AND INSTEAD PUNISHED HIM FOR REPORTING THE ABUSE.
WHILE WILLARD EUGENCE BERRY WAS INCARCERTED AT NEACCC HE REPORTED TO
THERAPEUTIC COMMUNITY SUPERVISOR BRIAN DOSS,SUBSTANCE ABUSE COUNSELOR CAROL
MCFARLIN AND TREATMENT SUPERVISOR KAREN HARDESTY THAT HE WAS BEING SEXUALLY
AND PHYSICALLY HARRASSED, THREATENED AND ATTACKED BY OTHER PRISONER NOT
ONLY DID THEY FAIL TO PROTECT HIM FROM HARM ALLOWING ANOTHER PRISONER TO
HURT HIM DOSS ALLEGEDLY REMOVED BERRY"S WRITING MATERIALS FOR TWO WEEKS
SO HE COULD NOT SUBMIT WRITTEN COMPLAINT AND PLACED ONE OF THE ABUSIVE
PRISONER IN THE SAME CELL WITH HIM UNTIMATERLY THAT PRIOSNER HURT
BERRY.SEE BERRY V. DOSS 900 f3d 1017 (8th cir 2018).
MR. WASHINGTON ARGUE THAT ."THE DEFENDANTS ALLOWING SEVERAL PRISONER TO HURT
MR.WASHINGTON HE PRESENT FACTS SHOWING THAT DEFENDANTS ACTED UNREASONABLE
SUCH THAT THEIR ACTION OR INACTION DID AMONOUTED TO DELIBERATE INDIFFERENCE
AND A FAILURE TO PROTECT AND THE FAILURE TO TAKE AND REASONABLE MEASURE
TO PROTECT AND DEFENDANTS KNEWN OR SHOULD HAVE KNOWN PLACING TWO OR MORE
INMATE IN THE SAME CELL WITH ONE (ONE GUARD ON DUTY IN THAT BUILDIN .MADE
IT HIGHLY FORSEABLE THAT MR.WASHINGTON WOULD BE PHYSICALLY ATTACKED AND
ASSAULT BY THOSE INMATE OR OFFENDER BECAUSE OF THE BAN OF TOBACC SMOKE
SUCH ACTS VIOLATED PLAINTIFF CONSTITUTIONAL RIGHT TO BE FREE FROM CRUL
AND UNUSUAL PUNISHMENT.
19

MR.WASHINGTON CASES ALLEGEDLY VIOLATED BY DEFENDANTS WERE CLEARLY
ESTABLISHED AT THE TIME OF THE CHALLSNGED ACTION THE EIGHTH CIRCUIT
WOULD HAVE TO RESOLVE THE GENINE AND MATERIAL FACTAUAL DISPUTE THAT
MEANS THAT THE COURT OF APPEAL WOULD HAVE TO DELVE INTO RECORD WEIGHT
COMETING EVIDENCE AND DECIDE IN THE FIRST INSTANCE THE PRECISE MOMENT
THAT MR. WASHINGTON WAS ASSAULT BY SEVERAL OFFENDER BECAUSE OF BAN
TOBACCO SMOKE AND INN VIOLATION OF THE JUDGE COURT ORDERED.
THESE ALLEGATIONS IF FOUND BY A JURY TO BE TRUE WOULD ESTABLISH AN
CONSTITUTIONAL VIOLATION THE EIGHTH AMENDMENT THOUGHT DILIBERATE
INDIFFERENCE TO MR. WASHINGTON TO THE FAILING TO PROTECT AGAINST
SUFFICIENTLY IMMUNITY ON APRIL 19,2017 VIOLAOTION OF JUDGE COURT ORDERED
AND SEVERLY ASSAULT AGAINST MR. WASHINGTON WAS CLEARL ESTABLISHED SUCH
THAT A REASONABLE OFFICIAL WOULD HAVE KNOWN THAT ACTION WERE UNLAWFUL
SEE: PROCTOR V. HARMON 257 f3d 868 8th cir 2001 FINEING A JURY ISSUE
WHEN A LIKE MR. WASHINGTON ALLEGED THAT OFFICIALS OR ANY PRISONER ALLEGED
THAT OFFICIALS PUNCHED HIM REPEATEDLY WHILE HE WAS HANDCUFFED SEE: ESTATE
OF DAVIS V. DELO 115 f3d 1388,1394-95 8th cir 1997. (FINDING AN EIGHTH
AMENDMENT VIOLATION WHEN OFFICIAL/OFFICIERS HIT / A RESTRAINED PRIOSNER
MULTIPLE TIMES IN THE HEAD FOR THESE REASON THE DEFENDANTS WAS NOT
ENTITLED TO ANY QUALIFIED IMMMUNITY ON A SUMMARY JUDGMENT FOR ANY REASONS
ON THE PLAINTIFFF CALIMS AGAINST DEFENDANTS AND MR. STAGMER SHOULD
PROCEED TO JURY TRIAL AND THAT DEFENDANTS WAS NOT ENTITLED TO ANY
QUALIFIED IMMUNITY ON A SUMMARY JUDGMENT FOR ANY REASON ON THE PLAINTIFF
CLAIMS AGAINST THEM .
PLAINTIFF FACTUAL ALLEGATION RAISE A MATERIAL ISSUE LOCAL OFFICIALS CUSTOMS
AND POLICIES ORDINAL A COURT MUST MAKE A THREE PART INQUIRT TO DETERMINE
WHETHER A DEFENDANTS IS ENTITLED TO QUALIFIED IMMUNITY FIRST IT MUST
DETERMINE THE PRISONER HAS ASSERTED A VIOLATION OF A CONSTITUTIONAL RIGHT
(SECOND). WHETHER THE ALLEGDLY VIOLATION CONSTITUTION RIGHT WAS CLEARLY
ESTABLISEH AND: (THIRD:) IF GIVE THE FACTS OF THE CASE A REASONABLE OFFICIAL
IS MEASRED BY WHAT A REASONABLE C.OMETENT OFFICIALSHOULD KNOWN GOOD FAITH IS
NOT AN ELEMENT OF THE DEFENDANTS RELEVANT TO THE QUALIFIED IMMUNIT INQUIRY
BECAUSE THE STANDARD IS ONE OBJECTIVE.
MR. WASHINGTON ARGUE IS THAT WHETHER THE JUDGE DIDNOT RULE ON THE QUALIFIED
IMMUNITY BE GAVE THE DEFENDANTS
AND GRANTED THERE MOTION FOR SUMMARY
JUDGMENT IS NOT WHETHER THE CONDUCT IS CLEARLY CONSTITUTIONAL, BUT WHETHER
IT IS CLEARLY UNCONSTITUTIONAL THE CORRECT INQUIRY IS WHETHER COURT OF
DISTRICT COURT ARE THE EIGHTH CIC. COURT OF APPEAL HAVE FOUND THE CONDUCT
UNCONSTITUTIONAL OR HAVE DEFINED A CONSTITUTIONAL RIGHT IN SUCH A WAY THAT
A REASONABLE OFFICIAL WOULD UNDERSTAND THAT WHAT HE:IS DOING VIOLATES THAT
RIGHT THIS IS NOT TO SAY THAT AN OFFICIAL ACTION IS PROTECTED BY QUALIFIED
IMMUNITY UNLESS THE ACTION IN QUESTION HAS PREVIOUSLY BEEN HELD UNLAWFUL
BUT IT IS TO SAY THAT IN THE LIGHT OF PRE-EXISTING LAW THE UNLAWFULNESS
MUST BE APPARENT MR. WASHINGTON DOES REQUIR A PRIOR CASE THAT IS PRECISELY
CLEAR IN RELATION TO THE SPECFIC FACTS CONNFORNTING THE PRISONER OFFICIALS
WHEN THEY ACTED.

20

FARMER STANDARD
MR. WASHINGTON ARGUE THAT DEFENDANTS KNOWN OF A SUBSTANTIAL RISK OF
SERIOUS HARM TO MR. WASHINGTON AND DISREGADED THE RISK BY FAILING TO
ACT REASONABLE TO AVIOD IT .SEE: FARMER V. BRENNAN THE EIGHTH AMENDMENT
CREATE A CONSTITUTION RIGHT FOR PRISON TO BE PROTECTED FROM HARM
BY FELLOW PRISONER SEE: GACE V. SOLEM 858 f2d 385, 388 (8th cir 198_)
THE CONSTITUTIONAL REQUIRE PRIOSN OFFICIAL TO PROTECT PRISONER FORM
INMATE ATTACK WHILE IN CUSTORY SEE: ALSO BERRY V. CITY OF MUSKOGEE 900
f2d 1489-99 10 th cir 1990 FINDING WHERE PRISONER WAS STRANGLED TO
DEATH IN PRIOSN BY TWO MEN WHO HE HAD IDENTIFIED AS HELPING HIM COMMIT
THE CRIME FOR WHICH HE WAS SEVING TIME OFFICIAL COULD HAVE KNOWN
OF THE DAGNER BASED ON THE PROIR RELATIONSHIP CORTES QUINONES V.
JIMINEZ-NETTLESHIP 842 f2d 556 , 562 -63 1st cir 1988 FINDING OFFIIALS
WERE DELIBERATELY INDIFFERENT TO THE SAFETY NEDDS OF A PHYCHIATRICALLY
DISTRURBED PRIOSNER WHO KILLED IN A OVERCROWED PRIOSN .SEE: GANGLOFF
V. POCCIA 888 f, supp 1549, 1555 (M.D.FLA 1995) FINDING THAT PRISON
OFFICIAL HAVE A DUTY TO PROTECT PRIOSONER FORM ONE ANOTHER.
POINT VI WHETHER THE DISTRICT COURT SHOULD HAVE APPOINT COUNSEL TO MR.
WASHINGTON WHETHER THE EIGHTH CIR. SHOULD NOT DENIED APPOINT OF COUNSEL
COUNSEL MR. PHILLIP J.R.ZEEK HAD MOVE THE U.S.D.C. FOR THE WESTERN DISTRICT
OF MISSOURI ST. JOSEPH DIVISION IN CASE NO. 17cv 6139sjnklp HE FILED UNDER
MO R. 83.2 TO WITHDRAW FROM THIS CASE AS COUNSEL TO MR.WASHINGTON IT IS
COUNSEL UNDERSTANDING THAT MR. WASHINGTON APPROVES OF AND CONSENTS TO THIS
WITHDRAW BECAUSE TELEPHONE AND WRITTEN COMMUNICATION WILL BE BETTER SERVED
BY COUNSEL LOCATED CLOSER TO HIM DOC.55 FILED 7/30/19 PG. 1 of 2.
MR.WASHINGTON DIDNOT APPOROVE AND DIDNOT CONSENTS TO THIS WITHDRAW OF
BECAUSE TELEPHONE AND WRITTEN COMMUNICATION HAVE BEEN EXTREMELY DIFFICUIT
SINCE MR. WASHINGTON MOVE OUT OF MISSOURI COUNSEL LIE TO THE COURT IN RE:
WASHINGTON V. BROOKS EL AL CASE NO. 17-6139 mr. phillip zeeck SEND MR.
WASHINGTON A LETTER MAY 31 2019 ON PAGE 3 HE STATED IN THE LETTER THAT
THAT ATTORNEY IN HIS OFFICE THAT HE SAID I HAVE BEEN INSTRUCTED TO WITHDRAW
FROM YOUR CASE SO THAT YOU CAN APPLY FOR LOCAL COUNSEL THROUGH THE COURT.
THE EVIDENCE IN HIS LETTER SHOULD THAT HE WAS INSTRUCTED TO WITHDRAW
AND MR. WASHINGTON DIDNOT APPROVES OF IT AND DIDNOT CONSENT TO THIS WITH
DRAWAL MR. ZEEK SEND A LETTER ON MAY':31 ,2019 STATED THAT HE WAS I”
INSTRUCTED TO WITHDRAW MR. ZEEK FILED A MOTION FOR LEAVE TO WITHDRAW TWO
(2) MONTH LASTED WITHOUT MR. WASHINGTON APPROVES AND CONSENTS HE WAS GOING
TO WITHDRAW ANY BECAUSE HE SAID THAT HE WAS INSTRUCTED TO WITHDRAW WHICH
COUNSEL WITHDRAW DURING THE MID OF DISCOVERY WHICH CAUSE MR. WASHINGTON
PREJUDICE IS WHICH THE WITHDRAW IN THE MID DURING DISCOVERY COUNSEL WITH
DRAW BECAUSE HE WAS TOLD THAT A INTERPERTER FOR MR. WASHINGTON COMMUNICAT­
ION WILL COST TO MUST BECAUSE THERE OFFICE DIDNOT HAVE A INTERPERTER ARE

21

USE OF TTY OR TTD TO COMMUNICAL WITH MR. WASHINGTON WAS UNDER (ADA)
42 U.S.C. 12101 COUNSEL DISRIMINATION AGAINST MR. WASHINGTON AND HI
DISABILIY COUNSEL FAILURE SECURE THE SERVICE OF AN INTERPERTER FOR
MR. WASHINGTON FAILURE TO FOUND THE STATOTORY ANTHORITY TO ENFORCE TITLE
OF THE ADA 42 U.S.C. 12101 AND MISSOURI STATUTE 476.753, 476.750 and
476.766, 476.750{50 AND CRIM PROC AND U.S CONT AMEND. VI I/XIV SEE:
WADAS V. DIR OF REVENUE 197 S.W. 222 , 2006 MO. APP LEXIS 1154.

22

4>

WHEREFORE MR.WASHINGTON , ECCLESIASTICAL D. RESPECTFULLY REQUEST THAT
THE COURT ENTERORDER OF WRIT OF CERTIORARI AND COURT REVERSED THE JUDGMENT
OF THE EIGHT CIRCUIT OF APPEAL AND THE DISTRCIT OF THE FOR WESTERN 8ISTRICT
MISSOURI THAT WAS DENIED UNTIMELY SHOULD BE REVERSED SHOULD BE SENT BACK
TO THE DISTRCIT COURT FOR APPOINT OF COUNSEL WHICH WAS COUNSEL GRANTED
LEAVE TO WITHDRAW DOC. 56 WITH WAS DENIED WITHOUT PREJUDICE COUNSEL FAILURE
TO FOUND THE (ADA) STATOTORY ANTHORITY TO ENFORCE TITLE OF (ADA) 42 U.S.C.
12101 AND REVERSED THE DENIED OF THE GRANTING SUMMUARY JUDGMENT TO THE
DEFENDANTS THAT WAS IMPORPERLY DECIDED FACTUAL ISSIES AND IMPROPERTLY
DECIDED FACTUAL ISSIES EIGHT CIRCUIT OF APPEAL FAILURE TO ABIDE BY IT
THE LAW OF LAND WHEN THE DEFENDANTS VIOLATION OF THE JUDGE COURT ORDERED
ON POST JUDGMENT INJUCTIVE RELIEF BECAUSE THE STATE OF MISSOURI CROSSROADS
CORRECTION CENTER FAILURE TO ABIDE BY THE TERMS OF THAT COURT ORDER THE
DEFENDANTS FAILURE TO COMPLY TO THE THAT ORDER. DISTRICT COURT ABUSED
ITS DISCRETION AND VIOLATION MR. WASHINGTONN DUE PROCESS BY NOT HOLDING
A HEARING DEFENDANTS FAILURE TO COMPLY WITH THE TERM OF COURT ORDERED.
DEFENDANTS WERE AWARE OF MR. MCGLUEN "SPREVIOUS ASSAULTS AND MR. STAGEN
MR. STAGNER,AfiND OTHER CROSSROADS INMATES ASSAULTED MR.WASHINGTON AND TO
THE ASSAULT* DEFENDANTS WERE AWARE OF THE SUBSTANTIAL OF AN ASSAULT PRIOR
TOTTHE ASSAULT DEFENDANTS WITH DELIBERATE INDIFFERENCE TO MR. WASHINGTON
NEED TO BE PROTECTED FROM ASSAULT,FAILED TO PROTECT MR. WASHINGTON.THAT THE
DECISION OF THE COURT OF APPEAL €0MSlI$$K>WITH THIS COURT: S CASES ALLOWING
STATE LAW IMPOSE FAILED TO COMPLY TO COURT ORDERED AND.ABIDE BT THE TERM
OF IT POST JUDGMENT INJUCTIVE RELIEF .

The petition for a writ of certiorari should be granted.
THE QUESTION PRESENT IN THIS CASES WHETHER THE 8TH CIR COURT OF
APPEAL AND THE LOWER DISTRICT COURT DEEPLY DIVIDED THE FEDERAL
COURT OF APPEAL AND STATE COURT PETITIONER TIMELY FILED A PETITION
Respectfully submitted,

Date:
I DECLARE UNDER PENALTY OF PERJURY THAT THE FOREGOING IS TRUE AND CORRECT
EXECUTED ON 11/24/20 28 U.S.C. 1746

23

